<html>
<title> - MID-CONTINENT LIGHT GEESE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                       MID-CONTINENT LIGHT GEESE

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     APRIL 15, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-22

                               __________

           Printed for the use of the Committee on Resources

                    U.S. GOVERNMENT PRINTING OFFICE
56-803 CC <l-ar/r-ar>       WASHINGTON : 1999

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ENI F.H. FALEOMAVAEGA, American 
JAMES V. HANSEN, Utah                    Samoa
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         PETER A. DeFAZIO, Oregon
WALTER B. JONES, Jr., North          NEIL ABERCROMBIE, Hawaii
    Carolina                         SOLOMON P. ORTIZ, Texas
MARK E. SOUDER, Indiana              FRANK PALLONE, Jr., New Jersey
ROBIN HAYES, North Carolina          CARLOS A. ROMERO-BARCELO, Puerto 
MIKE SIMPSON, Idaho                      Rico
                                     ADAM SMITH, Washington
                    Harry Burroughs, Staff Director
                     Dave Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 15, 1999......................................     1

Statement of Members:
    Faleomavaega, Hon. Eni F. H., a Delegate in Congress from 
      American Samoa, prepared statement of......................     3
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California, prepared statement of.................     4
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, prepared statement of.............     4
    Pickering, Hon. Chip, a Representative in Congress from the 
      State of Mississippi.......................................     9
        Prepared statement of....................................    10
    Peterson, Hon. Collin C., a Representative in Congress from 
      the State of Minnesota.....................................     7
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
    Tanner, Hon. John S., a Representative in Congress from the 
      State of Tennessee, prepared statement of..................     5
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     2

Statement of Witnesses:
    Adams, Tom, Senior Policy Adviser, National Audubon Society..    27
        Prepared statement of....................................    61
    Alison, Dr. Robert, Orillia, Ontario, Canada.................    25
        Prepared statement of....................................    60
    Batt, Dr. Bruce, Chair, Arctic Goose Habitat Working Group 
      and Chief Biologist, Ducks Unlimited, Inc..................    28
        Prepared statement of....................................    63
    Rogers, Dr. John, Deputy Director, U.S. Fish and Wildlife 
      Service....................................................    13
        Prepared statement of....................................    38
    Taylor, Gary, Legislative Director, International Association 
      of Fish and Wildlife Agencies..............................    20
        Prepared statement of....................................    43
    Thomas, Dr. Vernon, Professor of Wildlife and Management, 
      Department of Zoology, University of Guelph, Guelph, 
      Ontario....................................................    22
        Prepared statement of....................................    45

Additional material supplied:
    Background paper, Committee on Resources.....................    65
    Chretien, Raymond, Ambassador, Canada, prepared statement of.    71
    News from the U.S. Fish and Wildlife Service.................    41


             OVERSIGHT HEARING ON MID-CONTINENT LIGHT GEESE

                              ----------                              


                        THURSDAY, APRIL 15, 1999

              House of Representatives,    
    Subcommittee on Fisheries Conservation,
                               Wildlife and Oceans,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11 a.m., in 
Room 1324, Longworth House Office Building, Hon. Jim Saxton 
[chairman of the Subcommittee] presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee on Fisheries Conservation, 
Wildlife, and Oceans will come to order.
    Today, the Subcommittee will conduct an oversight hearing 
on the impact that light geese are having on the fragile 
Canadian Arctic tundra. We will examine the likely 
effectiveness of two rules that the U.S. Fish and Wildlife 
Service has recently issued to address this impact, and we will 
inquire whether additional population control measures may be 
necessary in the future.
    The U.S. Fish and Wildlife Service has been monitoring 
light geese populations for over 50 years. During this time, 
the population has increased from 800,000 birds in 1969 to over 
5 million mid-continent light geese today. It is projected that 
the breeding population could rise to more than 6.8 million in 
the next 3 years.
    These birds are world-class foragers, and their favorite 
foods are found in the 135,000 acres that comprise the Hudson 
Bay lowland salt-marsh ecosystem. In fact, they like this 
vegetation so much that they are eating it much faster than its 
ability to regrow. According to various scientists, one-third 
of the lowlands have been destroyed, one-third are on the brink 
of destruction, and the remaining one-third are being consumed 
by the ever-expanding population of these geese.
    While a solution to the overpopulation problem will not be 
easily found, there are certain undeniable facts. It is clear 
that man created the problem by planting thousands of acres of 
cereal crops, and unless some management practices are 
implemented, the destruction of the Arctic tundra will continue 
in the future.
    On February 16th, the U.S. Fish and Wildlife Service issued 
two final rules to reduce the population of Mid-Continent light 
geese. At that time, the Director of the Service stated that, 
quote, ``We are not ruling out any other solutions that could 
help solve this problem and ensure healthy population levels.'' 
I am interested in learning what additional steps may be 
contemplated; what is a healthy population level for this 
species, and how quickly will the tundra recover if foraging 
pressure is reduced?
    I look forward to hearing from our distinguished witnesses 
on how we should address these serious environmental problems.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning. Today the Subcommittee will conduct an 
oversight hearing on the impact that light geese are having on 
the fragile Canadian Arctic tundra. We will examine the likely 
effectiveness of two rules that the U.S. Fish and Wildlife 
Service has recently issued to address this impact, and we will 
inquire whether additional population control measures may be 
necessary in the future.
    The U.S. Fish and Wildlife Service has been monitoring 
light geese populations for over 50 years. During that time, 
the population has increased from 800,000 birds in 1969 to more 
than five million Mid-Continent light geese today. With a 10 
percent growth rate, it is projected that the breeding 
population could rise to more than 6.8 million birds in the 
next three years.
    These birds are world-class foragers, and their favorite 
foods are found in the 135,000 acres that comprise the Hudson 
Bay lowland salt-marsh ecosystem. In fact, they like this 
vegetation so much that they are eating it much faster than its 
ability to regrow. According to various scientists, one-third 
of the lowlands have been destroyed, one-third are on the brink 
of devastation, and the remaining one-third are being consumed 
by an ever-expanding population of light geese.
    While a solution to this overpopulation problem will not be 
easily found, there are certain undeniable facts. It is clear 
that man created this problem by planting thousands of acres of 
cereal crops and, unless some management policies are 
implemented, the destruction of the Arctic tundra will continue 
unabated and dozens of species, including light geese, will be 
unable to live there in the future.
    On February 16th, the U.S. Fish and Wildlife Service issued 
two final rules to reduce the population of Mid-Continent light 
geese. At that time, the Director of the Service stated that 
``we are not ruling out any other solutions that could help 
solve this problem and ensure healthy population levels in the 
future.'' I am interested in learning what additional steps may 
be contemplated, what is a healthy population level for this 
species, and how quickly will the tundra recover if foraging 
pressure is reduced.
    I look forward to hearing from our distinguished witnesses 
and I am anxious to hear the various recommendations on how to 
address this serious environmental problem.

    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, I compliment you for holding this oversight 
hearing on the destruction of the Canadian Arctic tundra by a 
growing population of light geese.
    Three years ago, the U.S. Fish and Wildlife Service joined 
with the Canadian Wildlife Service, Ducks Unlimited, the 
National Audubon Society, and several state fish and game 
departments in forming the Arctic Goose Habitat Working Group. 
After carefully studying the problem, a report entitled 
``Arctic Ecosystems in Peril'' was released.
    While there are many recommendations in this report, the 
bottom line is that immediate steps must be taken to reduce the 
population of Mid-Continent light geese.
    This population has exploded from 800,000 in 1969 to more 
than five million birds today. The fundamental cause of this 
dramatic increase is the expansion of agricultural areas and 
the abundance of food for these geese. In Arkansas, Louisiana 
and Texas alone, there are more than 2.25 million acres of rice 
farms that have become a buffet bar for these birds.
    With this improved diet, these geese are living longer and 
reproducing at about 10 percent each year. As a result, the 
135,000 acres of the Hudson Bay lowlands ecosystem are being 
systematically destroyed. What was once thickly vegetated marsh 
is rapidly becoming a virtual desert that will no longer 
sustain life. This fragile Arctic habitat recovers extremely 
slowly and unless this population is significantly reduced, 
dozens of species, including light geese, will not survive in 
the future.
    In an effort to address this escalating problem, the U.S. 
Fish and Wildlife Service has issued two final rules to slow 
the destruction of the Arctic tundra. These rules, which allow 
for expanded hunting opportunities, were drafted after a long 
and difficult process. More than 1,100 comments were considered 
and the rules are fully consistent with the recommendations of 
the Arctic Goose Habitat Working Group.
    While the rules by themselves will not save the ecosystem, 
they are a responsible step in the right direction. This is a 
problem created by man, and the Service should be commended for 
its leadership in this matter. The easy decision would have 
been to do nothing. After all, some might say this is a 
Canadian problem. However, to endorse the idea of simply 
allowing nature to run its course, to allow the population of 
light geese and dozens of other species that depend on this 
habitat to crash is irresponsible. We cannot sit idly by and 
allow this environmental catastrophe to occur.
    I look forward to hearing from our distinguished witnesses 
and to working together to solve this problem of an 
overabundance of Mid-Continent light geese.

    Mr. Saxton. In as much as the Ranking Member is not here, I 
guess I would ask if any other members have statements? Okay.
    I ask unanimous consent that all Subcommittee members be 
permitted to include their opening statements in the record.
    [The prepared statement of Mr. Faleomavaega follows:]

 Statement of Hon. Eni F. H. Faleomavaega, a Delegate in Congress from 
                             American Samoa

    Thank you and good morning Mr. Chairman. Before we begin I 
would like to extend a welcome to our assembled witnesses here 
this morning, and especially, I would like to thank Dr. Vernon 
Thomas and Dr. Robert Alison who have traveled from Ontario, 
Canada to be with us today. I look forward to hearing from both 
of you.
    I commend Chairman Saxton for the timeliness of today's 
oversight hearing. I am sure that several members of this 
Subcommittee were interested in the Fish and Wildlife Service's 
decision earlier this month to withdraw final rules designed to 
remedy the ongoing destruction of arctic and subarctic breeding 
habitats caused by the population surge of mid-continent light 
geese.
    I am inclined to agree with Judge Thomas Hogan's recent 
decision that found that the Fish and Wildlife Service had 
acted within its authority under the Migratory Bird Act Treaty 
to invoke emergency measures to protect migratory birds. I 
sympathize with the Service, because few activities in the 
management of natural resources are more challenging than the 
management of highly migratory species, whether that species is 
a Pacific tuna or a North American migratory bird.
    Nonetheless, concerns have been raised regarding the actual 
scope of habitat damage; the variability in the total 
population estimates of light geese; the identification of 
problem colonies in Canada; and whether the proposed remedy is 
an appropriate response to what may be a natural, cyclic 
population boom. In light of these unknowns, it was a fair 
judgement by Judge Hogan to rule that an environmental 
assessment (EA) was insufficient.
    I think it is a wise decision by the Service to develop a 
comprehensive environmental impact statement (EIS). A more 
rigorous evaluation of management alternatives would appear 
reasonable in light of the real likelihood for unintended 
impacts. Certainly, the last thing we want to do is 
unnecessarily apply lethal controls that are too broad or too 
indiscriminate, especially if more localized management options 
are available.
    I look forward to hearing from the Service on how they 
intend to complete this EIS within one year, what new research 
and data they expect to find, and what other management 
options, or combinations of options they intend to re-evaluate?
    I also look forward to learning more about the actual 
extent of arctic and subarctic breeding habitat damage. It is 
my understanding that there is documentation of severe habitat 
damage--principally in the La Perouse Bay region of Manitoba 
and at Cape Henrietta Maria in Ontario--but that overall damage 
estimates throughout the entire span of available Canadian 
summer breeding habitats have not been seriously quantified. It 
would seem that this basic ecological information is necessary 
for the Service to be able to approximate the true scope of the 
threat to breeding habitat.
    It also would be helpful to learn how other migratory bird 
species that share overlapping habitats with light geese have 
been impacted outside of the areas of documented damage? What 
might happen to these other populations should the population 
of light geese drop sharply?
    In concluding, as I said earlier, the management of highly 
migratory species is difficult, and mid-continent light geese 
are no exception. I commend the Service for its decision to 
develop an EIS, and I hope as a result that the Service might 
find suitable management alternatives to enable it to act in a 
timely and effective manner that is in the best interests of 
the both the birds and the threatened ecosystems.
    Thank you Mr. Chairman. Your leadership on this issue is 
important and I look forward to working with you in keeping 
track of the progress made by the Service to complete this 
important EIS.

    [The prepared statement of Mr. Pallone follows:]

Statement of Hon. Frank Pallone, Jr., a Representative in Congress from 
                        the State of New Jersey

    Thank you, Mr. Chairman, for holding this oversight hearing 
on the ongoing destruction of the Arctic Tundra by the Lesser 
snow geese. This is an important issue which must be addressed 
because its effects will permanently damage the environment and 
ecosystem of the Arctic Tundra.
    Since 1948, the Fish and Wildlife Service has been 
monitoring the snow geese population. Their studies have shown 
that the snow geese population has increased from 800,000 in 
1969 to more than five million birds today. Biologists at Fish 
and Wildlife have attributed the population explosion to 
changes in the landscape and the availability of grain crops. 
Easy access to food during migration, coupled with low 
mortality rates, has allowed the species to grow at an enormous 
pace.
    Unfortunately, due to the vast increase in numbers, the 
snow geese have destroyed thousands of acres of vegetated salt 
and freshwater marsh. Due to the need for more feeding grounds, 
the geese have driven out numerous bird species and now 
threaten an ecosystem that would take decades to rebuild.
    Reports indicate that the snow geese have destroyed a third 
of habitat, another third is almost destroyed, and the geese 
have focused on the final third. This feeding frenzy has caused 
millions of dollars in damage to agricultural crops and 
permanent damage to the ecosystem.
    Fish and Wildlife has tried to tackle this problem with 
increased hunting opportunities, such as expanding the hunting 
season and increasing bag limits. This has failed. The current 
harvest of the geese is the lowest in 25 years and the species 
continues to grow by 5 percent per year.
    I look forward to hearing from today's witnesses and I hope 
that today's oversight hearing will help us move in the right 
direction so that we can develop a plan that best protects the 
snow geese population and the valuable ecosystem of the Artic 
Tundra.

    [The prepared statement of Mr. Hunter follows:]

Statement of Hon. Duncan Hunter, a Representative in Congress from the 
                          State of California

    Mr. Chairman, I would like to begin by thanking you for 
this opportunity to provide testimony to your Subcommittee 
regarding the irreversible damage currently occurring in the 
tundra ecosystem of North America by the mid-continent lesser 
snow goose. As you are aware, this valuable international 
resource, which provides habitats for hundreds of different 
wildlife species, is in great danger of irreversible damage 
because of overpopulation of these geese.
    The mid-continent lesser snow goose is an Arctic-nesting 
waterfowl whose population has thrived in recent years as a 
result of increased agricultural and urban development and 
their ability to successfully exploit human modified 
landscapes. Whereas in most cases this would be viewed as 
successful wildlife management, in terms of the mid-continent 
lesser snow goose this emerging pattern has moved beyond 
desired levels to become an immediate threat to the very 
survival of this species.
    Since 1969, the mid-continent lesser snow goose has been 
steadily increasing at a rate of 5 percent a year from 900,000 
to more than 5,000,000 today. These geese forage by grubbing, 
or overturning soil, to reach the plant growth beneath the 
ground. This practice, coupled with the overpopulation, has 
caused severe environmental degradation to the Arctic 
ecosystem, almost rendering it useless for future plant growth. 
Fragile breeding grounds in Northern America, including the 
areas of Quebec, Ontario, Manitoba and parts of the Northwest 
Territories, have experienced irreparable damage to large areas 
of vegetation. Unlike most cases of wildlife population 
explosions where nature will balance species and habitat on its 
own, waiting for this to occur could be devastating. Current 
land-use practices have increased food supplies and reduced the 
winter mortality rate of these geese, thereby sending healthy 
birds back to breeding grounds where they continue to expand, 
destroying more and more of the North American tundra each 
season.
    This overpopulation also increases the potential for 
outbreaks of disease and could cause a decline in other species 
that nest in these regions. This includes semipalmated 
sandpipers, red-necked phalaropes, yellow rails, American 
wigeons, northern shovelers and a variety of passerines.
    The U.S. Fish and Wildlife Service has estimated that a 
decrease of one million geese, every year for the next several 
years, is what would be necessary to bring the mid-continent 
lesser snow goose population to one that is acceptable by 
wildlife managers. Taking this into consideration, the 
liberalization of many hunting frameworks is warranted. This 
includes modifying several current game-hunting regulations 
regarding baiting, electronic calls, concealment, bag limits 
and late-season expansion on and around state, provincial and 
Federal refuges. Though some conservation groups may consider 
these actions as severe, complacency can only be characterized 
as irresponsible.
    Earlier this year, the U.S. Fish and Wildlife Service 
implemented two rules in an attempt to address this growing 
problem. Specifically, this new policy provides more 
flexibility for states to allow the use of electronic goose 
calls and unplugged shotguns which had been prohibited in the 
past. Additionally, an extension of the harvest of snow geese 
for southern hunters beyond the current restrictions (March 10) 
in the Migratory Bird Treaty Act has also been authorized 
allowing hunters to take light geese outside the traditional 
hunting season frameworks. I would like to applaud U.S. Fish 
and Wildlife for these actions and their willingness to pursue 
viable alternatives.
    Despite these steps forward, however, more work remains 
necessary. Congress has the responsibility to encourage the 
U.S. Fish and Wildlife Service to utilize the most efficient 
conservation measures possible to reduce the population of mid-
continent snow geese to levels that are consistent with sound 
biological management principles. This includes the development 
of a comprehensive management strategy, the liberalization of 
hunting frameworks and the modification of public land 
management practices. With these efforts, further destruction 
of the tundra ecosystem may be prevented and the mid-continent 
lesser snow geese can populate in a more healthy manner.
    Thank you again for allowing me the opportunity to express 
my thoughts regarding important matters.

    [The prepared statement of Mr. Tanner follows:]

Statement of Hon. John S. Tanner, a Representative in Congress from the 
                           State of Tennessee

    Chairman Saxton, Delegate Faleomavaega, Members of the 
Subcommittee on Fisheries Conservation, Wildlife and Oceans, I 
want to first thank you for your continued leadership in the 
conservation of our fish and wildlife resources. It is that 
leadership that brings us here today to examine the plight of 
the Mid-Continent Lesser Snow Goose, the work of the Arctic 
Goose Habitat Working Group, and the recent action taken by the 
U.S. Fish and Wildlife Service.
    I want to thank the Members of this Subcommittee for 
holding this hearing, particularly in light of recent actions 
involving the Service's final regulations aimed at reducing the 
populations of lesser snow geese and Ross' geese to a 
manageable level over the next five years. The action taken by 
the Service is appropriate and advocated by a host of 
conservation partners including the state fish and wildlife 
agencies and Ducks Unlimited. I look forward to hearing from my 
fellow colleagues here in the House as well as from 
representatives of some of our conservation partners who have 
well stated interests in this critical issue and have worked 
hard to find common ground.

The Problem

    Let's face it, the problem is staggering. Over the past 30 
years the population of Mid-Continent Lesser Snow Geese has 
exploded by more than 300 percent. Roughly 900,000 Mid-
Continent Lesser Snow Geese were recorded in surveys taken in 
1969. Today, many of the estimated five million Mid-Continent 
Lesser Snow Geese are struggling to survive in the same arctic 
and sub-arctic breeding habitats that sustained only 900,000 
snow geese 30 years ago. Many biologists believe those breeding 
habitats are capable of sustaining fewer than two million snow 
geese today. The population of these snow geese is growing at 
an annual rate of about 5 percent. Indeed, in 1968 when 
scientists began studying snow geese in the breeding grounds 
around La Perouse Bay there were 2,000 breeding pairs. Last 
year scientists found more than 40,000 pairs. Nesting colonies 
at Cape Henrietta Maria have exploded from roughly 2,000 pairs 
in 1960 to 225,000 pairs last year that had hatched more than 
one million goslings. That means trouble in the states where 
these birds winter. State waterfowl managers in Arkansas, 
Mississippi, Louisiana, Texas, and Oklahoma are facing more 
severe problems in the southern regions of the Mississippi and 
Central Flyways where snow goose numbers have more than doubled 
in the last five years alone.
    Equally stunning, of the 1,200 mile coastline of Hudson Bay 
and the Southern James Bay, more than 30 percent of the 
original habitat is considered destroyed, another 35 percent is 
severely imperiled, and the remainder is overgrazed. These 
geese have eaten themselves into crisis.
    Mid-Continent Lesser Snow Geese rely on habitats in the 
arctic and sub-arctic regions of Canada primarily the western 
coasts of the Hudson Bay and the southern James Bay as well as 
the Baffin and South Hampton Islands for their nesting and 
staging areas. Beginning in August these snow geese begin their 
migration south over the Canadian boreal forests and along the 
Central Flyway corridor and the Mississippi Flyway corridor to 
their wintering grounds in Mississippi, Arkansas, Louisiana, 
Texas, and Oklahoma.
    Many waterfowl managers believe the virtually unlimited 
food source provided by many farmers in the Mississippi and 
Central Flyway states is part of the reason for the sustained 
growth rates these geese are experiencing. The available 
breeding habitats can no longer sustain the present population 
and that raises a number of threats to both these snow geese 
and other migratory birds that include the spread of avian 
cholera and increasing salinity levels in the soil because of 
the removal of virtually all of the tundra's protective turf by 
an over-abundance of snow geese.

The Arctic Goose Habitat Working Group

    The Arctic Goose Joint Venture, which is one of the Joint 
Ventures formed to implement the goals of the North American 
Waterfowl Management Plan, put together the Arctic Goose 
Habitat Working Group in 1996 to address booming snow goose 
populations and the resulting degradation of prime breeding 
ground habitat.
    By the end of 1997, the Working Group produced a series of 
recommendations in its report, Arctic Ecosystems in Peril, that 
took a significant step towards achieving the necessary 
consensus needed to begin solving the pressing habitat issues 
facing Canada and the United States.
        <bullet> Remove existing hunting restrictions on techniques 
        including the use of electronic calls, baiting, and the 
        practice of creeping.
        <bullet> Provide for a Conservation Order that permits snow 
        goose hunting beyond the between March 10th and August 31st.
        <bullet> Encourage native hunters to increase subsistence 
        harvests of eggs and adult birds.
        <bullet> Expand hunting opportunities on some National Wildlife 
        Refuges in an effort to help disperse the geese from typically 
        protected areas.
        <bullet> Work with waterfowlers and land owners to improve 
        access to private lands.
        <bullet> Encourage state wildlife agencies to develop 
        reciprocal agreements among the states to exempt nonresident 
        waterfowlers from purchasing multiple licenses to hunt snow 
        geese.
        <bullet> And finally, remove or greatly expand current bag and 
        possession limits.
    The recommendation to reduce the lesser snow goose population by 
half has been endorsed by the U.S. Fish and Wildlife Service, its 
Canadian counterpart, the state fish and wildlife agencies, Ducks 
Unlimited, the Ornithological Council, the Wildlife Management 
Institute, the Arctic Geese Stakeholders Committee, the National 
Wildlife Federation, and the National Audubon Society.
    Earlier this year, the Service adopted a series regulatory 
strategies aimed at giving state wildlife agencies in 24 states, 
primarily those in the Mississippi and Central Flyways, the flexibility 
to begin addressing the problems identified above with stepped up 
conservation measures.

        <bullet> States will be permitted to implement conservation 
        orders under the Migratory Bird Treaty that allow hunters to 
        take light geese outside the traditional migratory bird hunting 
        season frameworks. This essentially would permit hunters to 
        pursue light geese between April 1st and August 31st.
        <bullet> Hunters will also be permitted to use electronic goose 
        calls and unplugged shotguns.
    This action is expected to reduce the snow goose population by 1.25 
million geese in the first year, 1.9 million in the second year, and 
2.7 million in the third year. These estimated figures included the 
average 600,000 geese that are harvested under existing hunting 
frameworks.
    I want to make it abundantly clear, the Service's Conservation 
Order must be implemented. If these actions are not taken and the snow 
goose population is allowed to grow even more, the consequences will be 
such that in the years ahead we may not have the options we have today.
    Restoring these critical habitats for not only the lesser snow 
goose, but the many other species of migratory birds and wildlife that 
depend on the same habitat for their existence, is already expected to 
take decades. To delay further, in my view, borders on a complete 
abdication of our stewardship responsibilities.

The Future

    Like many who have been working on this issue for much longer than 
me, I don't believe the solution to this problem now or in the future 
will be a simple one. But I do believe we need to take several steps to 
prepare for the long-term management of the Mid-Continent Lesser Snow 
Goose population at sustainable levels in an effort to restore these 
critical habitats.
    Finally, as I said a year ago when this Subcommittee held a hearing 
on this issue, funding for migratory bird programs is not sufficient to 
meet our responsibilities. The Service requested an increase of $2.3 
million for its migratory bird management programs, which includes 
$200,000 specifically for snow geese. The Joint Flyway Councils have 
recommended a budget increase of $5 million to better address goose 
population monitoring and related management and research needs. Both 
the Service and the Congress would do well to seriously consider the 
merits of the Joint Flyway Council's recommendation.

The Cost Of Doing Nothing

    The cost of doing too little or nothing at all will be excruciating 
if not irresponsible. The Mid-Continent Lesser Snow Geese have now 
become a serious threat to their own existence in the view of many. 
Their destruction of these prime habitats are threatening the existence 
of many other species of migratory birds including shorebirds and 
songbirds. Specifically, puddle ducks like the American wigeon and 
shovelers no longer use the freshwater wetlands in and around the 
colony, according to experts like Dr. Batt. They are finding that many 
non-game migratory birds like the stilt sandpiper in the arctic and 
subarctic habitats are declining in numbers because of the extreme 
habitat degradation brought about by the abundance of these snow geese.
    One thing is clear to everyone who has objectively reviewed this 
issue. Doing nothing is neither scientifically viable, nor is it an 
acceptably responsible solution.
    Again, thank you Mr. Chairman, Delegate Faleomavaega, Members of 
the Subcommittee, and those who have been working on this problem 
through the Working Group for helping to raise awareness about the 
plight of the lesser snow goose and its habitats.

    Mr. Saxton. With that, I would like to introduce our first panel. 
The Honorable Collin Peterson who is with us, and the Honorable Chip 
Pickering is or will soon be; he is here. If you gentleman would like 
to take your places at the table, you may begin, and we will begin with 
Collin. Thank you for being with us. We appreciate your interest in 
this issue, and we are interested in hearing your testimony.

   STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and I guess I 
thought that Chairman Young was going to be here. I was going 
to let him get into all of the details of this. I guess, I 
don't know that I am any kind of expert, but I wanted to just 
relay some of my personal observations that some other members 
may not have had the opportunity to be involved in.
    One of the things I do for work and for fun is fly 
airplanes, and we go up into the Arctic with our floatplanes 
every once in a while, and I have had the opportunity to fly 
over this area that is in question, and I don't think a lot of 
people have had the opportunity to be up in this part of the 
world. It is a whole different situation, and things grow very 
slow up there, and it is a serious situation if we allow this 
to deteriorate any further. I don't know that it will ever come 
back or if it does, it will be extremely in happening.
    The other thing that I don't know if a lot of people 
realize just exactly what this kind of country is like up 
there. There is from Churchill up to Baker Lake, which you fly 
across this area, there are no roads; there is nothing there; 
no way to access it. So, if we don't figure out some way to 
control these populations, they are going to decimate the area, 
and I don't know how you would ever get in there and do 
anything to turn it around.
    So, I don't know if the solutions that we have are working 
all that well. The other thing that I can report on, I have had 
a lot of my friends and neighbors have been over in North 
Dakota and South Dakota and other places--Minnesota chose not 
to have a hunting season this spring--but I have been getting 
mixed reports on the success of these hunts.
    These geese, if any of you have ever hunted snow geese, are 
very difficult to hunt. Back in the old days when most of the 
flock was young birds, they were pretty dumb, and you could 
decoy them in and get a decent chance of harvesting some birds, 
but as this population has become healthier and older, they are 
a lot smarter--it doesn't matter whether it is the fall or the 
spring--and they are very difficult to hunt, and so the success 
rate--some people have had some decent success, but others have 
gone over and harvested one or two birds after hunting for 2 or 
3 or 4 days. So, I am not sure taking these limits off, 
increasing these limits, or having the spring hunt, just from 
anecdotal evidence, I am not so sure how much we are taking off 
the top of the population with this hunt.
    So, I mean, it is the right thing to do, I think, and it is 
an idea that gets at the problem, but, frankly, I just think we 
have kind of let this thing get ahead of us, and we were a 
little slow in getting to the--putting some solutions in place, 
and I don't know exactly what the overall harvest has been, but 
my sense is that in our part of the world they are not taking 
that many geese. I can tell you in the fall, I have been out 
snow goose hunting, and we usually come home skunked or close 
to it. They are very, very smart; very, very hard to hunt, and 
I just commend the Fish and Wildlife Service and all the other 
groups that have been working on this trying to come up with a 
solution, and we in the Sportsmen's Caucus have been concerned 
about this and have tried to do our part to publicize it and to 
work with all the other folks to try to come up with a 
solution, and I don't know if this is going to work. I am not 
sure what else you can do. Eventually, what probably will 
happen if this keeps on, is we are going to end up with some 
kind of a disease problem, and it will take of itself maybe, 
which would be an unfortunate situation.
    I would be interested in hearing from, I guess, the 
witnesses today just how successful this has been, but up in 
our part of the world, at least, I am not sure they were that 
tough on the population, but, as I say, it is the right to do.
    So, we commend you for having this hearing, and we in the 
Sportsmen's Caucus will do anything we can to help you and the 
Committee and others work on this issue, and I would be happy 
to answer any questions. I defer to my colleague from the 
Sportsmen's Caucus, Mr. Pickering.
    Mr. Saxton. Thank you very much, Collin.
    We will turn now to the gentleman from Mississippi.

STATEMENT OF HON. CHIP PICKERING, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF MISSISSIPPI

    Mr. Pickering. Thank you, Mr. Chairman. I, too, want to 
commend you for holding this hearing. I do, as Collin, serve in 
the Sportsmen's Caucus as the vice-Chair. I am an active hunter 
and conservationist from my region; Collin gives a good 
perspective from his region, but we are beginning to see the 
impact of the overpopulation of the snow goose in the southern 
flyway, the Mississippi Flyway, that includes 24 States, 
including my home State of Mississippi.
    Now, the southern States are seeing the harm because of the 
availability of food in the rice farms of Mississippi, 
Arkansas, Louisiana, and Texas. More than 2 million acres of 
rice crops and millions of acres of grain farms in the Midwest 
are becoming feeding grounds for the snow geese. As a result of 
the increased food supply, snow geese are living longer and 
reproducing at a higher rate which causes the destruction of 
135,000 acres of the Hudson Bay lowlands, the Arctic habitat of 
the snow geese.
    With the addition of the abundance of food in the South and 
Midwest, combined with the establishment of sanctuaries along 
the flyways and the decline in harvest rates of snow geese, 
there is a need for action to control the population of these 
migratory birds.
    Now, over the last few years, the U.S. Fish and Wildlife 
Service has worked with Canadian Wildlife Service, Ducks 
Unlimited, the National Audubon Society, and many States' 
Department of Fish and Game to formulate a report called the 
Arctic Ecosystems in Peril which outlines methods to stop the 
destruction of the Arctic tundra. In February, 1999, the U.S. 
Fish and Wildlife issued two rules that would help solve the 
current snow geese situation. One allows hunters to use 
unplugged shotguns and electronic duck calls to hunt snow geese 
during the normal hunting season when all other waterfowl and 
crane hunting seasons are closed. The second authorizes certain 
States to implement action to harvest snow geese by shooting in 
a hunting manner inside or outside of the regular open 
migratory bird hunting season framework.
    I believe these two policies are good steps in the right 
direction, but more needs to be done to solve the overall 
problem. I support many of the recommendations of the U.S. 
Wildlife Service, the report that they have issued, and I hope 
that these recommendations are considered and implemented.
    And, finally, I want to emphasize the need for quick action 
on this issue. The habitat of the snow geese and numerous other 
species is threatened by the destruction of the Arctic habitat. 
Furthermore, the farmers in the South and Midwest need relief 
from the damage done to their crops by the snow geese. Reducing 
the population of snow geese is a priority for conservationists 
and sportsmen, and it is my hope that action is taken quickly 
to protect the habitat of these birds and the other animals 
that live in the same environment.
    And, again, I just want to emphasize the need for the quick 
implementation of the recommendations of the U.S. Fish and 
Wildlife report, and I hope that we can work with you, the 
Sportsmen's Caucus, as we have worked with other committees. 
Anything we can do to help carry these out and meet this 
immediate need I think is of critical importance. Thank you 
very much.
    [The prepared statement of Mr. Pickering follows:]

Statement of Hon. Charles W. ``Chip'' Pickering, Jr., a Representative 
               in Congress from the State of Mississippi

    Mr. Chairman, Members of the Subcommittee, thank you for 
allowing me to speak to the Subcommittee about the issue of 
Mid-Continent light geese, also called snow geese.
    It is my privilege to serve as a Co-Chairman of the 
Congressional Sportsmen's Caucus. As an active hunter and 
conservationist, I believe we must address the population 
explosion of snow geese. Snow geese migrate in winter to the 
United States portions of the Central and Mississippi Flyways 
that include twenty-four states, including my home state of 
Mississippi.
    The overpopulation of snow geese hurts southern states 
because of the availability of food in the rice farms of 
Mississippi, Arkansas, Louisiana, and Texas. More than two 
million acres of rice crops and millions of acres of grain 
farms in the Midwest are becoming feeding grounds for snow 
geese. As a result of this increased food supply, snow geese 
are living longer and reproducing at a higher rate which causes 
the destruction of 135,000 acres of the Hudson Bay lowlands--
the Arctic habitat of snow geese.
    Because of the abundance of food in the South and Midwest, 
combined with the establishment of sanctuaries along the 
flyways and the decline in harvest rates of snow geese, there 
is a need for action to control the population of these 
migratory birds.
    Over the last few years, the U.S. Fish and Wildlife Service 
has worked with the Canadian Wildlife Service; Ducks Unlimited; 
the National Audubon Society; and many states' Department of 
Fish and Game to formulate a report called ``Arctic Ecosystems 
of Peril'' which outlines methods to stop the destruction of 
the Arctic tundra. In February, 1999, the U.S. Fish and 
Wildlife issued two rules that would help solve the current 
snow geese situation. One allows hunters to use unplugged 
shotguns and electronic duck calls to hunt snow geese during a 
normal hunting season when all other waterfowl and crane 
hunting seasons are closed. The second rule authorizes certain 
states to implement actions to harvest snow geese by shooting 
in a hunting manner, inside or outside of the regular open 
migratory bird hunting season framework.
    I believe these two policies are good steps in the right 
direction but more needs to be done to solve the overall 
problem. I support many of the recommendations of the U.S. Fish 
and Wildlife Service's ``Arctic Ecosystem in Peril'' report and 
I hope some of these recommendations are considered and 
implemented.
    Finally, I want to emphasize the need for quick action on 
this issue. The habitat of the snow geese and numerous other 
species is threatened by the destruction of the Arctic habitat. 
Furthermore, the farmers in the South and Midwest need relief 
from the damage done to their crops by the snow geese. Reducing 
the population of snow geese is a priority for conservationists 
and sportsmen and it is my hope that action is taken quickly to 
protect the habitat of these birds and the other animals that 
live in the same environment.
    Thank you.

    Mr. Saxton. Thank you. I would just like thank you both for 
your observations and your perspectives on what is obviously a 
very serious issue and one that has been under consideration by 
the Fish and Wildlife Service and by the Sportsmen's Caucus, I 
might add. Duncan Hunter and Duke Cunningham and others have 
been urging legislation on this matter, and, frankly, I have 
been holding back, because the Fish and Wildlife Service has 
been engaged with the biologists and experts in trying to 
manage this situation correctly, and, unfortunately, they have 
hit a couple of snags now which are unfortunate.
    I appreciate, Collin, your description of the problem and 
the difficulty of hunting them. The Fish and Wildlife Service 
believes that they do have some new methods or some new tools 
that can be used in hunting that will be quite effective, and 
we are going to hear from them a little later.
    By way of observation, these birds, even on the East Coast, 
get so thick--of course, the main problem now is in the center 
of the country--but even on the East Coast, they are becoming 
very prolific and very thick and are digging up mud flats all 
up and down the coast, and my son-in-law who is a great hunter, 
went out--he lives on a farm, and he went out and laid down 
behind the stone wall; the snow geese flew over him; with two 
shots, he killed nine geese; that is how thick they are, and I 
guess there was little luck involved in it, but he has told 
that story enough that I don't think he is exaggerating; I 
think he really did that.
    So, there are good reasons, and you have outlined them with 
your observations especially well, and I am hopeful that we 
will collectively be able to come to grips with this very 
serious issue before they do run out of food in the tundra and 
before they do, therefore, become diseased and die miserable 
deaths. I don't know whether any of my other colleagues have 
observations, comments or questions that they would like to 
make at this point.
    Mr. Hansen. What is the limit on snow geese? How is your 
son-in-law enjoying his time in prison?
    Mr. Saxton. Well, it was a mistake, you know. He just had 
those two shots and try that in front of a Federal judge 
sometime.
    Mr. Hansen. Tell him you got a double at the last, so you 
pushed one down in the mud or you----
    Mr. Saxton. Harry is defending my son-in-law, and says the 
bag limit is 15.
    Mr. Peterson. I think the limit was 10 before we started 
the special season, so I think he was probably okay.
    [Laughter.]
    I am not a game warden.
    Mr. Hansen. I have no questions, Mr. Chairman. I would like 
to say, I hope we don't overreact on some of these things. 
Sometimes I think we are a reactionary group, but I will be 
interested in seeing what comes out of all this.
    Mr. Saxton. Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I think your son-
in-law is all right. I know in Maryland the limit is 15 from 
about October through February.
    I want to emphasize to our colleagues that it really is--it 
isn't a growing problem on the Atlantic Flyway, it is a major 
problem on the Atlantic flyway, and I hope the Fish and 
Wildlife when they come up with this ever-changing policy with 
snow goose--and I want to thank them for all their efforts in 
this--but it is growing so fast on the Eastern Shore of 
Maryland that you can literally lose 100, 200, 300 acres of 
wheat in a matter of--winter wheat--in a matter of a couple of 
days. You can go out there and chase those buggers away, and if 
you happen to have 1,000, 2,000 acres and you are someplace 
else, they will come back in 10 minutes.
    They have really--they have adapted to the fact that gas 
guns won't hurt them; they have adapted to the fact that flags 
won't hurt them; they have adapted to the fact--just like a 
beehive--that as soon as a pick-up is gone, they come back in. 
So, it is going to be a major undertaking.
    I agree with my colleague from Utah that we don't want to 
overreact, but to get back in and strike this very complex, 
difficult position of bringing nature back into balance because 
of extraordinary human activity or because of the fundamental 
dynamic of natural systems, but I will think we will be able to 
do it, and good luck in your area, fellows.
    Mr. Pickering. Mr. Chairman, I would just like to add, in 
many ways we are benefiting from the success from our 
conservation efforts and the set asides that we have done, the 
practices setting aside the habitat and the food supply, but if 
we don't take drastic action on the snow geese problem--just 
for the Mississippi Flyway where we are seeing, like you, Mr. 
Gilchrest, just talked about how they can wipe out a field in 
an agricultural area and the habitat--it will begin to affect, 
and it has already begun to affect, other species, and so where 
we have made great strides in regaining the populations of 
waterfowl, it not only affects the snow geese population but 
all other waterfowl populations.
    So, we want to be wise and prudent, but we do need to take 
action now to be able to keep all other populations increasing, 
and the success that we have had from our other conservation 
programs continuing, and if we don't, it becomes out of 
balance; it could spiral downward, and we do need to take 
action now.
    All of the recommendations that the U.S. Fish and Wildlife 
Service, I think if they are implemented now and done quickly 
and urgently, that we can rebalance or correct the situation we 
now face.
    Mr. Saxton. Mr. Pombo.
    Mr. Peterson. Mr. Chairman, if I could just--you know, I 
would like to--I think the people in the Sportsmen's Caucus 
would like to know what these new hunting methods are, so we 
can go out and be more successful. So, if the Fish and Wildlife 
Service wants to come over and teach us, we would be more than 
happy.
    Mr. Gilchrest. If the chairman will yield for just 30 
seconds, I can tell you on the Eastern Shore of Maryland they 
go out there, and it is correct, you can shoot 15 a day for 
months at a time. They are difficult to shoot, just like 
shooting beehives, but what these fellows do is they go out 
there in the fields and they cover themselves with a mat made 
of cornstalks, and then the guide at one point will say okay. 
Even if those geese are flying over you 3 feet above your head 
he is the one that triggers the assault, if you will. You throw 
those mats off, you get up there, and a friend of mine with 
four other fellows got, I don't know, something like 80 geese, 
and they eat them all; they don't throw them away; they eat 
them all. So, that is one method, Collin.
    Mr. Peterson. Yes, I understand the method; I have been out 
and tried that. The problem is in our part of the world, you 
never know exactly where they are going to go, and it is a lot 
of luck. If you happen to be in the field and you have got 
yourself covered well enough, you may be able to get them to 
decoy in, but they are smart, at least in our part of the 
country, very smart, and they will sit up there 200 yards and 
circle above you, and more often than not go someplace else. 
Maybe they are dumber in Maryland than they are in North 
Dakota, but I will have to come out there and check it out.
    [Laughter.]
    Mr. Saxton. Well, I would like to thank both of you for 
your comments again and suggest, if you have time, if you would 
like to stay with us, we are going to have a full discussion 
here about what Fish and Wildlife has been up to. In any event, 
we thank you for being here; we appreciate your comments.
    We will, at this point, move on to our next panel, which 
is--we are going to hear from Dr. John Rogers who is the Deputy 
Director of the U.S. Fish and Wildlife Service, and, Dr. 
Rogers, we do have a 5-minute rule, but, obviously, we are very 
interested in hearing a thorough discussion this morning, so 
why don't you take such time as you need to enlighten us on the 
activities that you have undertaken in the last year or two and 
where we are and how well you think things are working.

 STATEMENT OF DR. JOHN ROGERS, DEPUTY DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Dr. Rogers. Thank you very much, Mr. Chairman. It is, once 
again, a pleasure to appear before you and the rest on the 
Committee on an issue that is of increasing importance to all 
of us, whether we are wildlife professionals, agriculturalists, 
hunters or wherever we find ourselves. We appreciate the 
opportunity to appear before you today to talk about the 
ecological problems that are being caused by the overabundance 
of light geese, particularly in the Mid-Continent.
    As you alluded to earlier, management of light goose 
populations in North America has presented the wildlife 
management community with one of its most challenging tasks. 
This is in stark contrast to the efforts earlier in this 
century to stem the market hunting and other commercialization 
of these birds that happened in the 1800's and 1900's. We are 
now faced, in contrast to those years, with managing some 
populations of geese that have become so overabundant that they 
are literally destroying their breeding habitat.
    The population of Mid-Continent light geese is, that 
principally lesser snow and Ross' geese, has grown to more than 
300 percent over the last 30 years, from an index of 900,000 
birds in 1969 to an index of over three million birds today. 
These population levels far exceed any historical estimates. 
The rapid growth of the population has been primarily 
attributed to the expansion of agriculture along the Central 
and Mississippi Flyways and the resultant low mortality and 
increased winter survival.
    As you alluded to earlier, both you and Mr. Gilchrest, Mr. 
Chairman, another population of geese that is steadily 
increasing as a result of increased use of agricultural lands 
is the greater population snow geese in the Atlantic Flyway--or 
the population of greater snow geese. Arctic habitats that are 
harmed by Mid-Continent lesser snow geese may take decades to 
recover if they ever do. Currently, as you mentioned, 35 
percent of the 135,000 acres of habitat in the Hudson Bay 
lowlands is considered destroyed; another 30 percent is 
damaged, and 35 percent is heavily grazed. Habitat damage is 
not limited to that done by the breeding geese, and breeding 
goose colonies; it is also caused by northward-bound spring 
migrants who stop and feed in these same areas.
    Although you may hear from some individuals and some 
organizations who are opposed to our actions, the Fish and 
Wildlife Service along with the Canadian Wildlife Service and 
virtually every wildlife biologist with experience in the 
Arctic in both countries believes that the Mid-Continent light 
goose population has exceeded the carrying capacity of its 
breeding habitat, and the population must be reduced to avoid 
long-term damage to an ecosystem that is important not only to 
those birds but to every other species of wildlife that shares 
that habitat. This is based on the virtual unanimity in the 
scientific peer review literature that supports our 
understanding of the damage that is being done to this habitat.
    In a paper submitted to this Subcommittee for the hearing 
record, Canadian authorities have stated that, quote, ``There 
is a broad consensus that the present growth rates of the geese 
cannot be sustained and that the particular kinds of habitat 
preferred by the geese are threatened in many areas.'' In 1997, 
the Arctic Goose Habitat Working Group of the Arctic Goose 
Joint Venture recommended that wildlife agencies take steps to 
reduce the Mid-Continent light goose population by 50 percent 
by the year 2005, and I would like to submit a copy of that 
report for the record, if I might, Mr. Chairman.
    Mr. Saxton. Without objection.
    Dr. Rogers. An environmental assessment of the Mid-
Continent light goose situation was completed by the Fish and 
Wildlife Service after extensive consultation with State, with 
provincial, private, academic, and non-governmental partners in 
both the United States and in Canada. Several alternative 
management actions for reducing light goose populations were 
examined in that assessment. The preferred alternative was to 
use new methods of take, namely electronic calls and unplugged 
shotguns, for use by hunters during normal waterfowl hunting 
frameworks when all other waterfowl and crane seasons were 
closed and also to advocate the creation of a conservation 
order that is a special new management action designed to 
decrease populations. This order authorized takes of snow geese 
during the normal framework closed period of March 10 to August 
31st.
    The Service published two rules in February 16th of this 
year implementing that alternative in 24 States of the 
Mississippi and Central Flyways. Several of those States 
implemented those regulations immediately as we published those 
rules, and based on reports from field biologists, the new 
regulatory approach appears to be successful. The Canadian 
Wildlife Service has implemented similar regulations.
    To compliment harvest management actions, we have initiated 
land management practices that will increase susceptibility of 
light geese to harvest and make some lands less suitable for 
utilization by these birds. These actions will focus on five 
points: first, providing increased hunter opportunity; second, 
decrease food availability; third, manipulating wetland areas 
to decrease their attractiveness to snow geese; fourth, allow 
altering winter habitat, and, five, conducting an aggressive 
communication and outreach program so that everybody understood 
both the situation and potential solutions. In addition, the 
Canadian Wildlife Service has been working with aboriginal 
groups to encourage them to take more geese in and around the 
breeding areas.
    It is known, however, that this can only be part of the 
overall solution. To date, no feasible method for reducing 
population numbers in the northern areas has been proposed. The 
Service's management action has received widespread support 
from the scientific and conservation community. Conservation 
groups such as the National Wildlife Federation, the Wildlife 
Management Institute, the Ornithological Council, the American 
Bird Conservancy, and Ducks Unlimited--who you will hear from 
today--have expressed strong support for the light goose 
population reduction program.
    In addition Flyway councils, the International Association 
of Fish and Wildlife Agencies and individual State wildlife 
agencies have worked closely with the Service to implement 
these management actions. Nevertheless, on March 3rd of this 
year, the Humane Society of the United States and several other 
animal rights groups filed suit against the Service challenging 
these new regulations maintaining that the Service had violated 
the Migratory Bird Treaty Act by enacting new regulations and 
that an Environmental Impact Statement should have been 
completed prior to implementation of these rules.
    On March 18th, Judge Thomas Hogan denied a preliminary 
injunction sought by the plaintiffs indicating that the 
Service's actions constituted a reasonable use of its authority 
under the Migratory Bird Treaty and that the population 
reduction program was based on sound scientific evidence. 
However, the judge concluded that the plaintiffs had 
demonstrated the substantial likelihood of success on the 
merits of their NEPA claim and that an Environmental Impact 
Statement should have been prepared. Based on the written 
opinion of the court, the Fish and Wildlife Service has not to 
continue with litigation and will initiate preparation of an 
EIS immediately and to withdraw the two regulations on light 
goose population reduction after the northward migration is 
complete. It is possible that the time requirements for 
preparing this EIS may preclude resumption of light goose 
management actions next spring and therefore prolong a 
resolution of this issue of habitat destruction.
    The Fish and Wildlife Service firmly believes that 
aggressive management intervention is a necessary and 
scientifically sound approach for the control of white goose 
populations. Without intervention, we will likely witness the 
destruction of an ecosystem that is important to snow geese as 
well as every other species of wildlife that shares this 
habitat, and it also possible that the snow goose population 
will crash and remain at extremely low levels due to lack of 
suitable breeding habitat, the spread of disease, and 
predation.
    We are committed to continuing to work with State fish and 
wildlife agencies, Canadian wildlife authorities, and public 
stakeholders to address this issue of the overabundance of 
white geese. Again, Mr. Chairman, thank you for the opportunity 
to appear before you today. I am prepared to answer any 
questions that you might have.
    [The prepared statement of Mr. Rogers may be found at the 
end of the hearing.]
    [The information may be found at the end of the hearing.]
    Mr. Saxton. Well, thank you very much, Dr. Rogers. In my 
testimony, I mentioned that the current population, which is an 
estimated five million, is projected to increase over the next 
3 years to almost seven million, 6.8 to be more precise. What 
affect will that potential increase have on habitat?
    Dr. Rogers. It will continue the destruction that has 
already occurred. I think one can expect that the complete 
destruction of habitat from 30 percent will rise into the range 
of 40 percent. You will start seeing effects on--increased 
effects on young birds with reduced size, weight, date of 
fledgling, increased disease occurrence and potential, 
increased starvation of young birds, increased freezing of 
young birds who haven't developed the necessary flight feathers 
to leave the Arctic before winter sets in. Concomitantly, in 
the southern areas--you heard from both Mr. Pickering and Mr. 
Peterson as well as Mr. Gilchrest--the agricultural damage that 
these birds cause in the winter; an increase by another almost 
two million birds will increase dramatically the depredations 
they cause on agricultural crops. The situation won't get any 
better.
    Mr. Saxton. Can you guess at how long it would take with a 
population of seven million birds for the destroyed tundra to 
reach the 40 percent level?
    Dr. Rogers. How long it would take to reach that level? I 
cannot project directly, but I would suspect in a matter of 2 
to 3 years. We can get a better answer for you for that for the 
record.
    Mr. Saxton. And at what point do you suppose the population 
would level off because of lack of food and disease?
    Dr. Rogers. Again, we are not certain of that. Dr. Batt, 
who will appear later, probably has a better idea, but these 
birds are very mobile, and after destroying the habitat along 
the Hudson Bay lowlands and the coast or traditional areas, 
they have shown amazing plasticity to begin using other areas 
that they have not historically used. So, it is potentially--it 
is at least a potential that the population may not immediately 
crash but move on to destroy other habitats that are, right 
now, very little if at all affected.
    Mr. Saxton. Well, what other critters depend upon the 
habitat in the Hudson Bay area that is being destroyed?
    Dr. Rogers. There is a wide variety of, particularly, 
migratory birds. It is a heavily used area, of course, by the 
polar bears and others--polar bears, of course, making it 
logistically difficult to work up there--but all species of 
birds that use the area are potentially affected, particularly 
semi-palmated sandpipers and red-necked phalaropes. The 
breeding pair counts of those have declined over the last 
number of years. Yellow rails, a species once abundant at 
LaPerouse Bay on Hudson Bay are not seen there at all right 
now. Other shorebirds as well as shovelers, American widgeon, 
are potentially affected, but, really, any species of bird that 
shares that habitat is potentially at risk.
    Mr. Saxton. A little later, we are going to hear from some 
other witnesses, and I will anticipate that we will hear a 
phrase which is ``Let nature take its course.'' This is an 
option which, obviously, has been talked about and considered. 
Why not simply allow the population to crash and let nature 
takes its course?
    Dr. Rogers. Well, Mr. Chairman, I think there is a--the 
statement that leads one to believe that nature will take its 
course is based on an incorrect premise and that is that it has 
been a natural situation that has got us here. What we have is 
an unnatural situation where the population has been kicked up 
to unusually and unnaturally high levels by the change in 
agricultural practices in the Mid-Continent of the United 
States, so the birds are essentially released from the normal 
limiting factors, that is winter survival, on their population. 
So, the option, in my view, might better be termed the ``do 
nothing'' option, and it is, in my view, the Fish and Wildlife 
Service's view, not a responsible option to take, though maybe 
it ought to be considered.
    The results of that--we talked about a little bit a minute 
ago--would be continued destruction of habitat, more 
widespread, and the potential that many of the scientists 
believe that this will never recover. You end up with smaller, 
weaker young; susceptibility to disease that would affect both 
birds in the North as well as along the migratory routes; 
starvation; freezing for those that can't fly away when winter 
comes; irreversible impacts on the habitat lead to irreversible 
impacts on other species, and, as you suggested, ultimately, 
the snow goose population, once the habitat is destroyed, may 
stabilize but at a considerably lower level and with a habitat, 
a breeding habitat, that cannot support higher populations, I 
believe would be in a positive feedback situation that would 
lead us to a catastrophic and permanent crash and the habitat 
and the populations of birds that depend upon it.
    Mr. Saxton. My time has almost expired, but let me ask one 
final question. It is obvious that your proposal has some 
opponents, otherwise, there wouldn't have been the activity in 
court. Obviously, you have got some supporters, and, obviously, 
you have got some folks who disagree. Can you kind of give us a 
lineup of the scientific and environmental groups and animal 
rights groups and where they all line up on this?
    Dr. Rogers. Every conservation group that I am aware of, 
every scientific group that I am aware of, all of the 
scientific literature, and all of the scientists who have 
produced that literature are in support of our approach to this 
problem. Those who on the animal rights side who do not agree 
that we should be intervening in what they view as a natural 
situation, such as those you will hear from today, oppose us, 
but the way I characterize it, it is a matter of the science 
supports the Fish and Wildlife Service; sometimes the emotion 
and the opinion of others leads people to line up on the other 
side.
    Mr. Saxton. Thank you. Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Mr. Chairman. Mr. Rogers, where 
do the snow geese along the Atlantic Flyway spend their spring 
and summer months?
    Dr. Rogers. They are breeding in the eastern Arctic.
    Mr. Gilchrest. Now, that is a completely different--so, the 
eastern Arctic, is that being damaged as much as the Hudson Bay 
area?
    Dr. Rogers. Not to this point. The populations have not 
reached a point where they are critically damaging their 
breeding habitat. The major problems at this time caused by the 
greater snow geese are in the salt marshes and agricultural 
areas. We--and I didn't mention--as we prepare this EIS, we 
will be bringing into that the greater snow geese on the East 
Coast, because, though the problem is not as severe right now, 
if we were to let it go without action and consideration, it 
will become so.
    Mr. Gilchrest. You mentioned a couple of times about one of 
the reasons for the explosion of population is the change in 
agricultural practices in the Midwest. Now, is this within the 
last 10 years, 50 years, 100 years? I think they have been 
growing grain out there for a long time.
    Dr. Rogers. Yes, and it took the snow geese time to adapt 
to it. Historically, they wintered in the coastal areas along 
the Gulf, but as the habitat was altered to support rice 
farming and as corn growing in the upper Midwest allowed them 
to winter farther north, the population slowly expanded. I can 
remember when--the Fish and Wildlife Service is not totally 
blameless in helping to encourage snow geese. A number of our 
refuges for years planted crops and encouraged crops around the 
refuges and on the refuges to support these critters.
    Mr. Gilchrest. You mentioned five fundamental policy 
changes that you thought would help reduce the exploding 
population. One is increased hunting or increased hunters. 
Could you give us some specifics like encouraging increased 
hunting to the State Department of Natural Resources, 
lengthening the season, take the plugs out of the shotguns, 
electronic calls? What exactly would you recommend?
    Dr. Rogers. Okay, what we had done before this year was to 
allow the full 107-day season that the Migratory Bird Treaty 
would allow and double the Federal limit on snow geese to about 
20 birds and remove possession limits. Unfortunately, as at 
least Mr. Peterson alluded to, most hunters certainly of the 
Mid-Continent, like geese, are not approaching their limits. We 
recognized that more had to be done. Therefore, we have 
instituted or had instituted during the regular season a 
situation that would allow the use, subject to State authority, 
of electronic calls and unplugged shotguns. These, at least 
from anecdotal reports of hunters, have been very successful. 
Of course, we won't know the success----
    Mr. Gilchrest. Were these implemented this season?
    Dr. Rogers. These were implemented in late February of this 
season, so we don't have----
    Mr. Gilchrest. Now, is that also in the Atlantic Flyway?
    Dr. Rogers. No, it was mostly in 24 midwestern States.
    Mr. Gilchrest. Will it be in the Atlantic Flyway next 
season?
    Dr. Rogers. It will not be in the Atlantic Flyway season or 
anywhere else until we finish an EIS. So, under the present 
condition, we have removed----
    Mr. Saxton. Will the gentleman yield?
    Mr. Gilchrest. Yes.
    Mr. Saxton. Mr. Rogers, Dr. Rogers, would you explain what 
the current situation is relative to the court ruling as it 
pertains to the ongoing status of the regulations?
    Dr. Rogers. Yes. The judge, in hearing the preliminary 
injunction requested by the plaintiffs in this lawsuit, 
determined that we were, as I said earlier, acting within our 
authority and responsibilities under the Migratory Bird Treaty 
Act but suggested that if this were pursued in court, we would 
be vulnerable on the grounds of not having followed the 
National Environmental Policy Act. Therefore, we have suspended 
both of these actions pending the completion of an EIS.
    Mr. Saxton. Which will be accomplished over what period of 
time.
    Dr. Rogers. Which will take 12 to 18 months, which I would 
suggest, at least at this time as far as we know it, would mean 
that we would not be able to use these more liberalized 
regulations in the future.
    Mr. Gilchrest. Which means we have got a lot of family 
members out there running through the winter wheat fields 
chasing geese.
    You mentioned decreasing food in agricultural lands. How do 
you decrease their food?
    Dr. Rogers. Well, that is a land management practice that 
would fall upon refuge managers whether they be State managers 
or Federal managers; that is to stop planting food crops that 
the geese use that, in many cases, hold them on refuges.
    Mr. Gilchrest. It may cause them to go to the----
    Dr. Rogers. It may cause them to go out there where they 
are more vulnerable.
    Mr. Gilchrest. You mentioned manipulating wetlands. How 
would you do that?
    Dr. Rogers. Well, by controlling the--again, in managed 
wetlands, principally, in State and Federal areas, we can 
control the water level. The snow geese tend to like shallower 
waters, so it would be managing a water level that was deeper 
that was less attractive to them.
    Mr. Gilchrest. Are there that many wetlands that have water 
that you can control the level?
    Dr. Rogers. Again, on many Federal and State management 
areas, yes, and these have become very important to snow geese 
in the wintertime.
    Mr. Gilchrest. How would you--I am going to--Mr. Pombo 
yielded some of his time to be my proxy, if I could just say 
that, Mr. Chairman.
    [Laughter.]
    Mr. Saxton. That is unusual, but since it is your birthday, 
we will----
    [Laughter.]
    Mr. Gilchrest. Thank you very much, Mr. Chairman.
    Just two quick questions. What methods are you now using 
with the Canadians in coordination with what we are doing down 
here as far as trying to find some method of altering those 
spring and summer habitats to reduce the breeding up there?
    Dr. Rogers. The Canadians have instituted very similar 
hunting regulations, as we did, so we are in complete 
coordination there. Of course, all the lands where they breed 
are in Canada, and the Canadian government has indicated in 
their statement suggested there has not been any proposal or 
any serious consideration yet of actions on the breeding 
ground. They are logistically very difficult; safety concerns; 
it would be very expensive, and in doing so, the harvest rights 
of aboriginal Canadians would have to be considered. So, the 
hope is that we, with the hunting process, can reduce the 
population to the levels needed and not have to think of more 
draconian levels that would take--draconian actions on the 
breeding grounds.
    Mr. Gilchrest. I see. So, the change of policy implemented 
in the Midwest in February will be withdrawn until the lawsuit 
is done?
    Dr. Rogers. It will be withdrawn until the Environmental 
Impact Statement is done.
    Mr. Gilchrest. I see. And that will be done----
    Dr. Rogers. And that will be done over the next 12 to 18 
months.
    Mr. Gilchrest. Oh, I see. So, a State, for example, cannot 
implement any changes like electronic calls, unplugged 
shotguns?
    Dr. Rogers. That is correct.
    Mr. Gilchrest. Those kinds of things.
    Dr. Rogers. That is correct.
    Mr. Gilchrest. I see. Well, thank you very much, Dr. 
Rogers. Thank you, Mr. Chairman.
    Mr. Saxton. You are welcome, and next year on your 
birthday, we will give you extra time again.
    Mr. Gilchrest. Appreciate that.
    Mr. Saxton. Dr. Rogers, thank you very much for your 
comments and for your testimony. The members may have some 
additional questions, and we ask that you respond to them in 
writing. The record for that will remain open for 30 days. 
Thank you for being with us.
    Dr. Rogers. Thank you, Mr. Chairman. Thank you, Mr. 
Gilchrest.
    Mr. Saxton. Our third panel this morning consists of Mr. 
Gary Taylor, legislative director of the International 
Association of Fish and Wildlife Agencies; Dr. Vernon Thomas, 
representing the Humane Society of the United States; Dr. 
Robert Alison, from Orillia, is it? Canada, Ontario, who is, I 
understand, also a member of the Humane Society but is here 
today on his own behalf; Mr. Tom Adams, senior policy advisor 
of the National Audubon Society; and Dr. Bruce Batt, who is the 
Chairman of the Arctic Goose Habitat Working Group and chief 
biologist of Ducks Unlimited who I understand is also from 
Canada.
    Thank all of you for being with us. Let me remind you of 
the 5 minute time limit, and, Mr. Taylor, when you are 
prepared, you may begin.

 STATEMENT OF GARY TAYLOR, LEGISLATIVE DIRECTOR, INTERNATIONAL 
           ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Taylor. Thank you, Mr. Chairman. I am Gary Taylor, 
legislative director for the International Association of Fish 
and Wildlife Agencies. We appreciate the opportunity to share 
with you today our perspectives on the increase of the Mid-
Continent lesser snow goose population and the impact they are 
having on the Arctic tundra habitat.
    The association firmly supports the Fish and Wildlife 
Service's final adopted rules on the management of Mid-
Continent light geese as a very measured response, implemented 
after extensive discussions with the resource managers in the 
States and Canadian provinces, between the Federal governments 
of the United States and Canada, and with interested 
constituencies and publics. We would urge the Subcommittee's 
support for these actions and also your support for increased 
funding to the Service for monitoring the effectiveness of 
these conservation measures.
    The association and its member agencies are very familiar 
with the necessity for action to address the overpopulation of 
snow geese that is causing substantial adverse impact on the 
Arctic tundra. As you may recall, we appeared before this 
Subcommittee last April to address this issue, and, at that 
time, we stressed the need for immediate action. We have also 
been involved with the deliberations of the Arctic Goose Joint 
Venture and the Stakeholders' Committee on Arctic Nesting 
Geese, and the association has endorsed the recommendations of 
both of these groups.
    The association continues to be concerned that snow goose 
populations are expanding at an average rate of 5 percent a 
year and now exceed five million breeding birds. This 
overabundance of snow geese is attributed mainly to changing 
agricultural practices on the wintering grounds and the coastal 
areas along the Gulf of Mexico and throughout the Central and 
Mississippi Flyway migration corridors. These practices, as you 
have heard, have inadvertently increased the food available to 
snow geese during migration and wintering periods.
    Scientists and wildlife managers agree that Mid-Continent 
lesser snow geese have become so numerous that fragile tundra 
nesting habitats along the Hudson and James Bay coastal 
lowlands have been severely degraded or destroyed. This is a 
serious ecological problem affecting all indigenous species of 
flora and fauna, thus decreasing the diversity of these 
biological communities.
    There are indications that other bird species, such as 
shorebirds and other waterfowl that nest in these areas, are 
already in decline because their breeding habitat is being 
destroyed. As snow goose populations continue to increase and 
brood rearing habitat declines, birds are dispersing to 
adjacent areas, and the zone of damaged habitat is spreading. 
Population levels are now well above the sustainable levels for 
the Arctic and sub-Arctic habitats upon which they depend. In 
addition, as carriers of avian cholera, snow geese are a 
potential health threat to all other bird species that share 
their nesting or wintering habitats. Furthermore, as you have 
heard, reports of damage to agricultural crops that lie along 
the migration route between these areas are also increasing.
    As you have heard, the snow goose population has now become 
a threat to itself, and without immediate action, ecological 
damage in affected habitats could be catastrophic. There is 
credible and mounting evidence to substantiate that this damage 
could, in fact, be permanent. Habitat recovery in areas that 
are not even permanently damaged will take decades or even 
centuries to recover.
    Resource managers have a responsibility and an obligation 
to protect this fragile habitat through the appropriate 
measures to control the escalating snow goose population. To 
let nature take its course for snow geese is neither acceptable 
nor responsible. If the adult snow goose population is not 
reduced to appropriate and self-sustaining levels in the very 
near future, millions of geese will die from starvation and 
disease. Should the population crash in this manner, it is 
likely that snow geese would not recover because of long-term 
or even permanent loss of the habitat necessary to support the 
rebuilding of these populations.
    The association concurs that effective management measures 
must be directed towards reducing adult bird survival. The Mid-
Continent population must be reduced by approximately 50 
percent of its current size. To do this, the association 
concurs with the alternative regulatory strategies adopted by 
the Service. Under the authority of this rule, States, through 
their State fish and wildlife agency, will be able to develop 
and initiate aggressive harvest management strategies. An 
increase in harvest will assist with habitat management on the 
wintering grounds and relieve both population and habitat 
pressure on the Arctic breeding grounds. Remedial actions must 
be applied now. Any delay may result in consequences that are 
significant and, in some cases, virtually irreversible.
    One other point we would like to make, Mr. Chairman, is 
that there is a decided lack of funding for goose management 
and, in particular, snow goose management programs. The need 
for better biological data, enhanced habitat management, and 
intensified population management is increasing while Federal 
dollars for natural resources are decreasing. The Joint Flyway 
Councils on which sit all 50 State fish and wildlife agencies, 
have recommended a budget increase of approximately $5 million 
to the Service's budget to adequately address goose population 
monitoring, management, and research needs. The association 
fully supports this request and also urges the support of this 
Subcommittee for that request.
    Again, Mr. Chairman, thank you for the opportunity to share 
our perspectives, and I would be pleased to address any 
questions you might have.
    [The prepared statement of Mr. Taylor may be found at the 
end of the hearing.]
    Mr. Saxton. Mr. Taylor, thank you very much for your 
testimony.
    We now move to Dr. Vernon Thomas.

   STATEMENT OF DR. VERNON THOMAS, PROFESSOR OF WILDLIFE AND 
   MANAGEMENT, DEPARTMENT OF ZOOLOGY, UNIVERSITY OF GUELPH, 
                        GUELPH, ONTARIO

    Dr. Thomas. Thank you, Mr. Chair and members of the 
Subcommittee. I appreciate the opportunity to appear here 
today.
    First, I will give you my credentials. I am a professor of 
zoology at the University of Geulph in Ontario, Canada. I have 
been in that position for the past 25 years. I teach at both 
the undergraduate and graduate level in animal ecology, 
ornithology, fish and wildlife management, and areas of applied 
resources policy. On the research side, I have conducted 
research in the area under question, James and Hudson's Bay. I 
have worked on the feeding ecology of snow geese and Canada 
geese in this region. I have published on those results in 
international journals. I have done work in that area in the 
wintertime, spring, and fall; I know it well. For three 
consecutive springs, I have lived with the native people as 
they took geese in the spring. I am also involved in the 
development of non-toxic shots for the past 5 years, so I have 
a certain sympathy with the ammunition and hunting industry. On 
a personal level, I am a shooter. I have shot in five 
countries, and, at this point in time, my kill of geese is just 
below 400. Those are my credentials and I believe my basis for 
appearing here today as an expert in this area.
    Let me begin by saying that I take a somewhat different 
view of this issue compared with the Service, and the 
differences lie in the fact that I have taken a more long-term 
ecological approach to this issue rather than a short-term 
approach and an approach which is based on the somewhat 
outmoded style of single species management as opposed to 
ecosystem management. Central to this issue, as you have heard 
already, is the idea that there is a huge agricultural subsidy 
in the United States which is burgeoning this population. Now, 
I would say that that is, perhaps, true, but, yet, 
overexaggerated for two reasons. There is no empirical evidence 
that numbers of white geese have ever been controlled or 
limited by their winter habitat conditions. This is a belief, 
an assumption, that is being used in this case. Secondly, there 
is the statement that these birds, fed on prairie grains, go up 
into Canada fat and then continue to breed at much, much higher 
levels. I contend there is no carryover of this prairie grain 
effect into the Canadian lowlands. In fact, published data have 
indicated that for the past 19 to 20 years, there has been a 
reduction in the clutch size; that is the number of eggs laid 
by females in the southern Hudson Bay population of snow geese, 
and that is a very significant decline in their reproductive 
output over that time. In other words, I feel that on those two 
counts, the impact of agriculture, while real, has been, 
perhaps, overexaggerated.
    The goal of this management plan it has given is to 
conserve Canadian Arctic habitat. Now, I would say that while 
we have heard and seen many statements that geese are causing 
destruction, damage, and periling an entire ecosystem, I would 
argue that as an ecologist that those are somewhat 
sensationalistic statements. Yes, geese do have impact on 
vegetation; that is their natural role, but there is an 
alternative ecological explanation. The role of geese in this 
situation, particularly when their grazing is heavy, is to 
cause change; change in the nature of those plant species' 
composition of the lowland vegetation over time, and I 
emphasize here that we should not confuse change in plant 
species composition with destruction of an ecosystem. That is 
not, in my professional opinion, the case.
    We have seen what geese in this area have gone through over 
the millennia. Three successive waves of glaciation and 
retreat. A thousand years ago, the major warming trend that 
afflicted North America, 500 years ago, 300 years ago, the 
little Ice Age, and now, we are in another warming period. In 
my opinion, over the millennia that these geese have existed, 
they have not suddenly become delinquent in the last two 
decades.
    In the reports that you have seen, we have not seen much 
evidence given or stated about the role or the uplift of these 
lowlands in creating new habitat each year. The Hudson Bay area 
is, perhaps, one of the most dynamic parts of North America, 
and new habitat is being created every year at an astonishing 
rate of approximately 15 to 25 yards of new shoreline above the 
tidal zone. This is soon to be occupied by geese every year.
    This population of birds, as do all animals, has the 
capacity to regulate its own numbers. It is happening at Hudson 
Bay for the last 15 to 20 years that we know of. We see it in 
the form of lower clutch sizes; fewer gosling surviving; 
smaller adults that are produced from these areas where grazing 
is affected. We have seen major dispersal. These are natural 
processes, yet this is being dismissed by government. 
Government has said that if we allow this population to undergo 
natural self-regulating processes, it will crash, and, again, 
there is no implicit--there is no empirical evidence for such a 
behavior of populations in the wild. This is a native 
population in its natural habitat. It is unconstrained; it can 
move, and I would argue that this population, when stabilizing, 
will not crash.
    You have seen the point made that a burgeoning population 
of geese is going to cause enormous damage to other species, 
disease. Well, these snow geese and Ross' geese already number 
five to six million birds; they travel in huge flocks, and if 
disease such as cholera, enteritis, and others were to 
outbreak, I must argue that it would have already happened on a 
major, major scale; it has not.
    The idea of displacement has been based on the idea of two 
reports, somewhat contradictory, incidentally; the latest one 
saying that 9 out of 35 species looked at have undergone change 
while the other 26 have not. There is no conclusive evidence of 
widespread decline in another species, and I would actually 
take this report and read to you one statement that has been 
overlooked very frequently. The authors say, ``We have found no 
compelling evidence that these impacted species are declining 
on larger spacial scales.'' Therefore, I say, that we should 
not use the preliminary report based upon one very, very small 
geographic area to indict at least two-thirds of the 
continent's snow geese.
    My last point is that as an ecologist I see evidence of 
ecological processes fashioning populations very adaptively 
over time. We should allow that process to continue. This is 
not to deny hunting its role. Where appropriate, where 
populations have grown and grazing is heavy, natural selective 
factors can fashion that population of birds far more 
effectively, far more adaptively than any hunting can do, 
particularly thousands of miles from the places where it needs 
to happen. And I would suggest that we focus management in 
areas where there are species that need, perhaps, a lot more 
attention and dollars--pintails, scaup.
    In conclusion--and I will make this very, very quick--I, as 
an ecologist, see this goose issue as not a problem for nature, 
but, perhaps, one for managers. And my last statement is that 
as an ecologist if I cannot agree scientifically with the 
definition of the problem, then I cannot agree with the 
specific nature of the solution. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Thomas may be found at the 
end of the hearing.]
    [The information may be found at the end of the hearing.]
    Mr. Saxton. Thank you very much, Dr. Thomas.
    Dr. Alison, would you do me a favor? I am just curious, 
would you pronounce the name of the city that you are from, 
please? I don't say that to be smart, I just am very curious.
    Mr. Alison. It is pronounced Orillia.
    Mr. Saxton. Say it again, please.
    Mr. Alison. Orillia.
    Mr. Saxton. Orillia. Thank you very much. You may proceed.

    STATEMENT OF DR. ROBERT ALISON, ORILLIA, ONTARIO, CANADA

    Dr. Alison. Thank you very much for allowing me to speak 
today. I, too, will start out with mentioning my 
qualifications. Just to correct the record, I am not with the 
Humane Society; in fact, I am not with any pro-hunting or 
animal rights organization at all.
    Mr. Saxton. Thank you very much.
    Dr. Alison. I am here as an individual with Ph.D. in 
ornithology; did my research on Hudson's Bay. I have been going 
to the area under discussion today for 30 years. I lead nature 
tours there, have done that for 15 of those years. I was 
involved as a professional waterfowl manager for 10 years, 
committee chairman in both the Mississippi and Atlantic Flyway 
for 7 of those 10 years, and I was Ontario's voting 
representative in both of those flyways throughout that period. 
In that capacity, I had quite an amount of effort and time 
devoted to lesser snow geese. I was on the Snow Goose Committee 
in the Mississippi Flyway for 5 of those years. On the other 
hand, I am also a hunter and a sportsman, and I am the editor 
of Canada's largest circulation hunting magazine. So, I guess I 
try and see this predicament from both sides.
    It is quite true that there has been a rather significant 
habitat change, deterioration, in Arctic Canada. An area of 
approximately 200,000 square miles on the west and south coast 
of Hudson's Bay which in the mid-seventies was lush and green 
is now brown and dry and appears dead. There is enormous 
interest in what has caused this deterioration or this change, 
and I think that, just for the record, I would like to point 
that I think there has been a slight misunderstanding of the 
area that we are dealing with.
    I have trudged over and flown over this area for over 25 
years. Now, this is not lesser snow goose breeding habitat. 
There is one very trivial colony at LaPerouse Bay that has 
centered in the area of major concern. The rest of the major 
snow goose colonies that we are dealing with, of which there 
are approximately 15, are not in this contested area at all, 
and most of them several hundred miles away. This is not snow 
goose breeding habitat that we are dealing with, with the 
exception of the LaPerouse Bay colony itself, which I will 
reiterate is a very trivial colony and also a colony of very 
recent roots.
    I think the area that we are dealing with is rather an area 
that is used by staging geese, fall and spring staging geese, 
and the part that I find most puzzling is that despite the fact 
that the habitat has deteriorated and that the geese are blamed 
for it, it is very probable and indeed likely from information 
that the Canadian Wildlife Service has made available, that 
some of it isn't used by geese at all, particularly the part 
that is inland. I have some trouble figuring out how geese can 
damage an area that they don't go to.
    This is my main interest for being here. What I would like 
to suggest is that there are other possible explanations for 
what has occurred in the Arctic. Vern Thomas referred to 
isostatic uplift a moment ago. This is a geologic process that 
causes the land to rise as a result of the melting of glaciers, 
which in Hudson Bay were in some places over a mile thick. The 
land was depressed, it is now rising, and this has caused some 
change in wetland distribution and in entirely wetland ecology, 
and I have seen that in the 30 years that I have been going 
there.
    Perhaps, as significant as climate change, which is 
occurring up there, climate change is not only affecting the 
habitat, but it is affecting the geese. So far, the geese have 
been unable to adapt their breeding strategy to the changes in 
climate that are occurring. The last year, for example, the 
geese nested too early; they were fooled by the warmer weather, 
and, as a result, when the goslings emerged, there wasn't 
enough for them to eat, and there was rather large scale 
starvation. This may or may not be a case of the birds adapting 
to these changes.
    The Arctic summer is now approximately 2 weeks longer than 
it was 20 years ago. The temperature has risen approximately 
five degrees centigrade in the past 20 years. These are 
enormous changes; Nature doesn't like abrupt change, and I 
think that species are having a difficult time adapting to it.
    I think the bottom line is that these birds are in the 
process of adapting to something that is very far-reaching. I 
think it is dangerous to extrapolate the findings at one small 
colony so as to appear to apply to the rest of the breeding 
population. There is no data, no data whatsoever, to suggest 
that any of the other breeding colonies are eating themselves 
into oblivion as has been suggested for LaPerouse Bay.
    Having been to LaPerouse Bay many, many times, I will admit 
that the core of the colony seems to be deteriorating, but I 
would say that the other colonies have not been proven to have 
that kind of deterioration, and so I would say that it is 
dangerous to blame the geese for what is occurring there.
    I guess to summarize, I would like to say that there are 
many, many more important processes that are occurring in this 
area that I think should be of much more concern to the 
governments of Canada and the United States, and I would be 
glad to deal with those if I have time, but the final point I 
would like to make is that, in my capacity as an editor for a 
major hunting magazine, there is some concern among Ontario 
sportsmen that the process of establishing what amounts to a 
war on snow geese may give hunters a black eye. I, in fact, 
share that fear, and, secondly, I don't think that it is 
possible for the sportsmen of the United States and Canada 
combined to kill enough geese to make much of a difference even 
it is established by the rigorous research that I would 
recommend that these birds are, in fact, doing the damage that 
they are purported to do.
    Thank you, Mr. Chairman, for allowing me to make these 
comments.
    [The prepared statement of Mr. Alison may be found at the 
end of the hearing.]
    Mr. Saxton. Dr. Alison, thank you very much, and I 
apologize for mischaracterizing your appearance here by 
mentioning the Humane Society, and we will certainly get that 
right in the record. Thank you.
    Dr. Tom Adams.

STATEMENT OF TOM ADAMS, SENIOR POLICY ADVISER, NATIONAL AUDUBON 
                            SOCIETY

    Mr. Adams. Thank you, Mr. Chairman, for upgrading my 
credentials. I am not a doctor, but I appreciate that.
    On behalf of the more than one million members and 
supporters of the National Audubon Society, we appreciate the 
opportunity to testify today here, and we are also representing 
our 520 chapters.
    I have to admit I am relatively new to this issue. Probably 
the person in our organization with the most expertise is 
currently tied up in our internal version of an omnibus 
conference committee, which is our annual budget meetings, so 
he regrets not being able to be here; that would Frank Gail.
    In the time that I have been looking into this issue, I 
have also been preparing my taxes, and I am probably one of the 
few Americans who will say taxes are not that complicated, 
especially compared to this.
    I know our statement is in the record, and there is just a 
few points that I would like to touch on that other witnesses 
have done, so I will expedite what I had planned to say and 
just associate myself with some of the remarks. Audubon feels 
that the science that has been put into this decision is 
credible, and we support its findings. We also want to 
associate ourselves, especially, Congressman Pickering made a 
remark about the impact this is having on other species, and 
the habitat depletion in both areas, and that, I think, is our 
primary concern is that there is more than one species at risk 
here, and so we support the action while recognizing, as others 
have said, a more comprehensive solution or approach is going 
to be needed to get to the heart of this matter, particularly 
in the winter habitats and the expansion of agriculture that a 
number of witnesses have testified towards.
    Just a few quick few points, and I do want to go through in 
here in order to--one of the ironies, I think, of this issue 
and what we are looking at is as the amount of habitat is being 
overgrazed and overgrubbed in the Arctic, you are seeing a 
pattern where the population is just expanding, fueled in part 
by the winter habitat. I couldn't help but find that sort of 
being analogous to the issue of sprawl in that we are just 
continuing to expand habitat in a lot of communities that is 
affecting wildlife, and I think at some level you have an 
analogous situation with the expansion of the snow geese 
habitat.
    We also, I think, share Congressman Gilchrest's concern. 
Several of us in our DC office have been out there and 
witnessed the winter populations, and we see a similar 
situation arising there.
    In closing, I would just summarize, once again, that we 
appreciate the Subcommittee having this hearing and looking 
into this important matter in that we see more broader actions 
that are going to be needed to get this issue under control, 
and we stand ready to help in that effort, and we, again, just 
urge this Subcommittee to look for and encourage the Fish and 
Wildlife Service to look to means beyond just hunting, which we 
don't think will accomplish the goal, and with or without 
hunting, there is the possibility of a crash of the species 
occurring. So, we urge you to help the Fish and Wildlife 
Service in a more broader approach to this problem. Thank you.
    [The prepared statement of Mr. Adams may be found at the 
end of the hearing.]
    Mr. Saxton. Thank you, Mr. Adams.
    Dr. Bruce Batt.

   STATEMENT OF DR. BRUCE BATT, CHAIR, ARCTIC GOOSE HABITAT 
    WORKING GROUP AND CHIEF BIOLOGIST, DUCKS UNLIMITED, INC.

    Dr. Batt. Thank you, Mr. Chairman, for the opportunity to 
share the views of Ducks Unlimited on this issue. I am chief 
biologist of Ducks Unlimited in Memphis, Tennessee, and I am 
also chairman of the Arctic Goose Habitat Working Group. This 
is the group that produced the report that Dr. Rogers 
presented.
    The Working Group developed two scientific reports that are 
the basis for decisions by the U.S. and Canadian governments to 
reduce the numbers of geese to levels that can be sustained by 
their environment. This Working Group consists of 17 public 
agency, university, and non-government organization scientists 
and natural resource managers. I have been in this field for 
over 30 years, and I rate this as the strongest group of 
professionals ever drawn together to analyze a goose 
conservation issue of such scope and consequence. Our work was 
objective and very critical in coming to solid conclusions. 
Technical review by other peer scientists has resulted in the 
broad-based agreement with our conclusions about the cause of 
the problem and the need to reduce numbers of geese to a 
sustainable level.
    Your invitation asked us to address three questions. The 
first was to review the impact the overabundant geese are 
having on the ecosystems, and I think you have got a reasonable 
look at that already. Agriculture is the main factor we believe 
that drives increased survival of adults and young during the 
winter, and it also assures that the adults return to their 
breeding grounds in excellent conditions every year, because 
their last stopping point on the prairies is from agriculture 
and then to the tundra. Their condition on arrival is a very 
important detail here, because the nutrients that they bring 
with them in their bodies is what goes into their eggs, and it 
is what the females use to sustain them through incubation. 
When they get to the Arctic, however, they continue to feed, 
and the local destruction of the habitat there means the clutch 
sizes decline, because that is where they top up for the 
nutrients that they use when they get there. We can go on with 
some of these technical details, but I won't take you into that 
for now.
    Ever-increasing numbers of geese are returning to this 
habitat year after year. The best studied area is an 1,100-mile 
strip of salt marsh habitat; it is not trivial piece of 
countryside. Thirty-five percent of it has been destroyed; 30 
percent of it has been damaged and so on. This is clearly not a 
localized problem as a very few individuals have claimed. And 
destroyed is the correct term, because the process of 
devegetation of the salt marsh results in changes in soil 
chemistry that present the goose food plants from becoming 
reestablished.
    There is no doubt that the Hudson and James Bay salt marsh 
ecosystems are in peril. Goose enclosures placed in an already 
destroyed marsh 15 years ago have not been revegetated. This 
strongly supports the conclusion that this damage is 
effectively permanent.
    Assertions that natural mechanisms, such as isostatic 
rebound, will help solve the problem are not correct. Once the 
geese have destroyed the entire coastal marsh, there will be no 
source of propagules that can colonize the newly-emerging 
coastal area. The optimism that isostatic rebound may solve the 
problem is further negated by the reality of sea level rise 
which will soon be flooding salt marsh as fast as it emerges. 
Likewise, the contention that climate change and isostatic 
rebound may be the cause of the problem is not supported. A 
simple reality check shows that all the Arctic is subjected to 
these same two forces, but the only place that ecosystem 
destruction occurs is where there are unsustainable goose 
numbers.
    Scientists, on the largest northern breeding colonies away 
from Hudson Bay coastline, see similar ecosystem impacts. 
Quantification of those impacts is underway now through the use 
of satellite images on which the damaged areas are easily seen 
from space. However, there is no doubt among the scientists on 
the ground that the damage has been enormous. In some areas, 
they see horizon to horizon devastation. The finite amount of 
suitable snow goose breeding habitat is rapidly being consumed, 
and it will be lost. The lessons being learned on the Hudson 
Bay lowland salt marsh ecosystem provide an unambiguous model 
of what will happen in other Arctic ecosystems if this problem 
goes unchecked.
    The destruction of these areas is manifested by low 
survival of goslings, because there are no food plants to eat 
when they hatch. If you go to colonies along the Hudson Bay 
lowlands, you will find hundreds of dead and dying goslings. I 
have done it myself at Cape Henrietta Maria and LaPerouse Bay. 
I could have found thousands as they were so abundant that the 
scavengers can't keep up with them. If these populations are 
not controlled, millions of young will die each year.
    In most animals, what we call density-dependent population 
regulation would have occurred because of lowered reproduction 
caused by lack of food. The twist on this story is that the 
geese are mostly free from local conditions, because they 
return from the South fat and nearly ready to breed because of 
agriculture in Canada and the U.S. adults and broods also move 
to other areas causing a wave of destruction up and down the 
coast as the remaining salt marsh disappears. As a result, 
population regulation mechanisms are reducing numbers on some 
colonies by killing the young, but the overall population 
continues to grow as colony boundaries expand. But, note again, 
there is a finite amount of habitat in which to expand. After 
all 1,100 miles of the Hudson and James Bay salt marshes have 
been destroyed, the geese will decline but at the price of a 
whole ecosystem.
    Extensive collateral damage will occur, because the 
collapsed ecosystem will no longer be able to support other 
wildlife species, especially migratory waterbirds that use this 
area. As unhappy as the forecast is the geese, in the big 
picture, the collapse of an ecosystem is an even more serious 
consequence. Most of these other species are not threatened or 
endangered, but major segments of the population depend on the 
coastal salt marsh. These are the true birds of the Americas as 
the countries of North, Central, and South America all share 
them.
    We conclude that goose populations were unlikely to have 
been at these levels for at least the last several centuries. 
There is no evidence from recent recorded history that we can 
only objectively reason what might have happened previously. 
Our rationale is simply that most of these geese are sustained 
for two-thirds of the year by agricultural crops that were not 
there until this century.
    We believe it became possible for the geese to move from 
their traditional marsh habitats when new food resources became 
available on the farmland. For example, the Mississippi Delta 
consisted of 25 million acres of forestland in 1900. Clearing 
for agriculture accelerated through the 1970's and today only 3 
million acres remain. Rice, winter wheat, and soy beans 
dominate that landscape now in Louisiana, Mississippi, 
Arkansas, Tennessee, and Missouri where it was once forest and 
where a large portion of Mid-Continent lesser snow geese now 
live in the winter. These are perfect goose foods that did not 
grow in the forest, and the geese couldn't live there. The 
geese could not have thrived as they do now on most of the 
North American landscape until agriculture came along. The 
winter habitat was simply not there to allow them to grow to 
numbers that they are today.
    Managers should intervene to prevent the continued growth 
of this problem, because it is caused by changes that, although 
unwittingly, we have wrought on the North American continent. 
To fail to do so would be an abrogation of our most fundamental 
responsibility to conserve the biodiversity of life in the 
ecosystems that we influence.
    The second question was how successful Fish and Wildlife 
Service actions to reduce the size of the white goose 
populations would be. I can only speculate as the first 
conservation order is still in effect, and we just don't have 
the data yet. There are plenty of restraints on this first 
effort as it was not authorized until late in the winter which 
was short notice for hunters and outfitters to become engaged 
in the harvest. The cultural shift of hunters participating at 
this time of year will also take time to develop, and all 
jurisdictions were not able to fully participate. Nevertheless, 
the harvest is underway. I believe we will learn after the 
final data are in hand that enough birds were harvested to 
verify that future seasons with this year's restraints removed 
should, indeed, be able to get the job done.
    The third question was about additional steps that might be 
taken if the current activities are not successful. This would 
involve direct culling of the population by management 
agencies. This is a distasteful prospect with profound 
political and economic consequences. It is hard to conceive of 
an army of paid government employees trapping and euthanizing 
geese whether it occurred in Texas, South Dakota, Manitoba or 
the Northwest territories. Planning for this eventuality has 
not proceeded very far, because a reasonable test of the much 
preferred current methods will take a few years.
    Everybody with a honest concern about the future of these 
precious resources hopes deeply that increased harvests will do 
the job. It is not clear that the necessary political and 
economic support can come together to allow direct culling by 
the government. It is far more prudent, economically and 
politically, to maintain and improve the current course, and it 
is crucial to do so without delay. Every technical, 
administrative, legal, and political delay just adds to the 
problem. There is urgency here as we may not be far from the 
point where it is simply too late to intervene effectively.
    We also know that other goose populations are benefiting 
from agricultural crops and growing to unprecedented numbers. 
Thus, it is critical that we learn as much as we can from this 
first experience with overabundant geese, because we are facing 
the same thing with numerous other populations in the near 
future.
    We must not leave our role in this challenge to be reduced 
to only recording for history the crash of the geese and the 
ecosystem destruction that looms in the near future. We must 
address this issue with a full commitment to solving one of the 
greatest challenges that wetland and the waterfowl conservation 
has ever faced.
    All of us here have an interest in sustaining the 
magnificence spectacle of snow geese. The actions that are 
being pursued by the Federal agencies in both countries will 
help us all successfully assure a bright future for the Arctic 
geese and the Arctic ecosystems and the other wildlife that are 
in peril.
    [The prepared statement of Dr. Batt may be found at the end 
of the hearing.]
    Mr. Saxton. Dr. Batt, thank you very much. Let me just 
pursue a couple of questions, if I may.
    Dr. Thomas, when we invited you we realized that you have, 
perhaps, a unique perspective and a different notion about the 
nature of this problem or, perhaps, that is not even saying it 
correctly that you don't think it is a problem, and I don't 
mean to characterize your thoughts, but that is the general 
impression that I got, and you seem to be in a rather small 
minority of scientists. I have a resolution here from the 
Ornithological Council, the Ornithological Union, the 
Association of Field Ornithologicus, the Cooper Ornithological 
Society, and the Wilson Ornithological Society endorse the 
science-based recommendations of the Arctic Goose Habitat 
Working Group as necessary steps for reducing the Mid-Continent 
snow goose numbers to a level of about 50 percent of the 
current numbers by the year 2005. That seems to be a fairly 
strong statement by a fairly broad-based group of people who 
are--groups that are made up of members of people who are 
fairly well-renowned experts in the field of birds. How is it 
that you have such a different view of this issue than most 
others in your profession?
    Dr. Thomas. There are several points to respond with them. 
First is that when we deal with this whole issue of birds, 
particularly geese in Hudson's Bay and the ecology of the 
lowlands, there are very few people who actually have been 
working there professionally. The report that has been entered 
into evidence today, Arctic Ecosystems in Peril, has probably 
been written by no more than about six or seven authors in 
total. There is one primary botanist in that whole region 
together with his students. A lot of the people who are in the 
wildlife profession are not particularly competent in plant 
ecology, and I would argue that what you are seeing here is a 
report that has been written by a relatively small number of 
people whose entire professional research experience is 
confined to this area, is reviewed by, perhaps, a few more, and 
then given the blanket blessing of the committee, and I think 
that we are seeing second-hand, third-hand points of view and 
information being accepted as though it were gospel.
    I alluded earlier to the one report that talks about 
collateral damage and the impact upon other species, and there 
are one or two statements in here which have never been 
amplified. We see in this report, emphasis upon species in 
decline, species in decline, yet if you were to go through this 
very report you would see greenwing teal up quite considerably. 
In recent years, pintail ducks going up, black ducks stable, 
mallards stable, 9 out of 35 species apparently in decline in a 
very restricted part of the sub-Arctic.
    A lot of people don't go back to the fundamental data. A 
lot of people don't have the first-hand experience with this 
area, and this is why I think it is easy for a particular 
position to become pirated across many groups.
    Mr. Saxton. Dr. Batt, you just heard your report 
challenged. Would you like to respond?
    Dr. Batt. That was not a report that was part of the Arctic 
Ecosystems in Peril; that was something that was done 
subsequently with bird observation data collected over 25 years 
at LaPerouse Bay, and we agree that the decline of the species 
that have been measured to decline at LaPerouse Bay, none of 
them are in endangered or threatened, and a lot of them live in 
other places. I see them basically as canaries in the coal 
mines. As the ecosystem collapses and a large subset of these 
species can no longer live there, some of them--I think John 
mentioned the yellow rail--have disappeared, and some of these 
species can't live there, it tells you that this is becoming a 
dysfunctional ecosystem, and there is new work underway. There 
are graduate students that are now working on some of these 
issues. This was not anticipated many years ago that these data 
would be important and would ever be used for this purpose. So, 
the use of those data was an extension of them, really, beyond 
what they were ever intended to be used for.
    Mr. Saxton. Thank you. Dr. Batt, Dr. Alison takes some 
issue with the notion that the damage to the tundra and the 
ecosystem is due to overgrazing by snow geese. I have a copy of 
your report here where you studied this very notion with 
enclosures that were intended to keep snow geese out of certain 
small areas while they were free to graze in adjoining areas, 
and the enclosed areas appear to have remained healthy as much 
as the geese couldn't get to them, while the other areas appear 
to be decimated would be the correct word. Would you comment 
relative to Dr. Alison's notion on this subject?
    Dr. Batt. Well, this whole region is undergoing the process 
of isostatic uplift, and it is undergoing some degree of 
climate change. The difference between the green areas inside 
these enclosures and the devastated area outside is that the 
geese are outside. This whole--inside and outside are both 
undergoing the same process, but it is not correct that when 
you look inside that this is what the tundra would naturally 
look like. This is an ungrazed area. Geese are part of the 
system, and this exaggerates the contrast, but it does show 
that outside the area it is destroyed; inside it is not. To me, 
there is a picture that is not shown in the report which is 
more devastating, and that is an area where an enclosure was 
put in that had already been destroyed about 15 years ago to 
see how long it takes for it to come back, and 15 years later 
nothing has responded. So, to me, that is even a more serious 
issue.
    Mr. Saxton. Thank you. Mr. Taylor, there has been some 
discussion as to the effectiveness of the current new 
regulations that will suspended here apparently for the next 
season because of the court's action. Do you have any 
information to share with us that would indicate that 
population control measures undertaken by the new regulations 
will be successful to the extent that you believe it will solve 
the problem that we experience and move to, in fact, the 
recommendation of the statement of the ornithologists that the 
current level of reduction of 50 percent by the year 2005, is 
that a realistic goal?
    Mr. Taylor. Mr. Chairman, I think it is a goal that we need 
to strive for. If you recall, as Dr. Rogers indicated, we don't 
have data yet on success of the implementation of the 
conservation order for this season that started late. I am not 
sure of the exact number of the States that have taken 
advantage of that. There are logistical requirements for 
putting in place some of the measures that are provided for 
under the rule. Nonetheless, we do believe that this is a very 
appropriate and measured response and should be given the 
opportunity to be substantiated as to what effect it has had, 
and if, as anticipated, preliminary indications suggest that 
this by itself will not solve the problem, then we believe that 
the resource agencies need to deliberate further on other, as 
Mr. Rogers characterized them, more draconian measures that may 
be necessary to control this population.
    Mr. Saxton. Dr. Alison, for one, in his testimony, 
questioned whether hunting would be an effective tool. I 
understand that basically you have done several new things. One 
is to provide for unplugging of shotguns; two is to provide for 
the use of electric calls, and I guess three would be to 
increase the bag limit, is that correct?
    Mr. Taylor. To provide for, also, an additional season 
outside the frameworks, and, again, I think that this is a very 
appropriate and efficient way of attempting to bring some 
management to these numbers. As many have alluded to, the 
logistics of population management in the Arctic are pretty 
formidable. The cost of implementing measures up there, I don't 
know that anybody has good estimates of. So, it makes sense to 
us that using sportsmen, by allowing these type of 
opportunities under the appropriate oversight of the Federal 
and State fish and wildlife agencies, is very cost efficient, 
and we will determine how effective it is to bring some 
management to this population.
    Mr. Saxton. Have other measures--I guess, maybe, Dr. Batt 
would be the appropriate person for me to pose this question 
to. There have been suggestions that, perhaps, activities in 
the breeding--human activities in the breeding ground, such as 
egg collection or egg shaking, would be something to look at. I 
am sure that that is not a new notion; I am sure you have 
examined these issues. Can you comment relative to that 
approach?
    Dr. Batt. In our report, we did some mathematical modeling 
looking at what stage of the annual cycle we could be most 
effective at reducing the population and what would happen at 
all the different stages throughout it, and far away the most 
effective way to reduce adult survival--other factors like 
scaring the birds so they wouldn't lay as many eggs or wouldn't 
use as much food or destroying the nests or such matters like 
that. We calculated, actually, that it would take something 
like 1.8 million eggs to be destroyed to stabilize the 
population, and that wouldn't bring about any decline, and that 
would have to be done for at least 7 or 8 consecutive years, 
because that is about how long adult geese live is about 8 
years. There is no practical mechanism to do that; there is no 
communities nearby. This is all remote work with helicopters 
and with associated costs and dangers and everything else. 
There really isn't a sensible way to go about doing this.
    Mr. Saxton. And if the current regulatory scheme doesn't 
eventually kick in and work, what then?
    Dr. Batt. I believe the current scheme will work, and I 
will just give you a little data. Four or 5 years ago, there 
was only about 400,000 snow geese being killed in the U.S. and 
Canada in the hunting season. In the last couple of years, 
there has been 700,000 to 800,000 killed. The only change was 
that the duck population came back; more people went duck 
hunting, and there was more incidental contact. There was some 
changes in the rules relative to bag limits and that sort of 
thing, but the harvest went up with pretty benign changes. Now, 
with these more significant changes, it should not be big deal 
to double and triple the harvest with these new measures that 
are being allowed at the end of the normal season and through 
the spring, and when they get kicked in Canada, too, we think 
that will help do the job.
    As far as what next, in my statement, I said, I guess we 
don't know. That is going to take a while to figure out. We 
believe that it is most crucial to follow through on the 
current plan, and evaluate it, and find out, in fact, if it 
will work. Let us find out; let us get some real world 
experience by doing and learning as we go.
    Mr. Saxton. But it sounds like the problem is that unless--
the problem is that unless everybody agrees there is a problem, 
we wouldn't want to try to solve the problem, because there is 
none.
    Dr. Batt. Right, well----
    [Laughter.]
    [continuing] I believe that there is a problem that we 
should solve, and I think that the path that we are on is the 
correct one for this stage of the process.
    Mr. Saxton. Dr. Thomas, am I characterizing you correctly? 
Do you believe that there is not a problem? I think that is the 
crux of your testimony, is it not?
    Dr. Thomas. I agree that there is an increasing population 
of snow geese, and I agree that there are areas of the sub-
Arctic lower Hudson's Bay which have shown quite heavy levels 
of grazing by geese. What we define as the problem is, is it a 
problem for management or is this a problem for the geese that 
they are unable, incapable of resolving this at a population 
genetic level? I am convinced that snow geese, as has already 
been shown over the last 15 or 20 years, can begin to stabilize 
to numbers as resources become limited, and I would say that 
you would expect to see this self-regulatory process become 
more extensive, more intensive as the months and years go by. I 
have full faith in the ability of geese to undergo mortality, 
reproduction regulation in such a way that it shapes that 
population deliberately and very adaptively for the years to 
come in a very dynamic, changing environment.
    Natural selection operates on a population which is very 
often not readily apparent to us. It is not random; hunting is.
    Mr. Saxton. Let me ask this, then. I think you started to 
answer this question by saying, there is an increase in the 
population which is a problem, yes?
    Dr. Thomas. Well, I don't think it is a problem for the 
geese in so far as it will arrive at some point at which 
numbers will stabilize, perhaps, even decline in some areas. I 
don't think we have reached that point yet. It is a little bit 
like people in an economic sense saying, ``Well, heck, the dow 
isn't going go to above 10,000.'' It has, and they are 
surprised. I think we are seeing surprise on the part of 
managers that geese have gone above 5,000; they have. Clearly, 
there are resources that support them. Geese seem to know more 
about their habitat than we, as managers, do.
    Mr. Saxton. Let me ask this: Do you think there is any room 
in this process at all for agency management of snow geese?
    Dr. Thomas. I think you already have some of it in the form 
of ongoing spring hunts--I am sorry, ongoing fall hunts.
    Mr. Saxton. Do you support those hunts?
    Dr. Thomas. As an individual--and I will remove myself here 
from representing the views of the Humane Society of the United 
States--as an individual, I have no problem with fall hunting. 
I think that I have yet to see a really valid, compelling 
reason to introduce, for the first time since quite a large 
number of years, a special condition for spring hunting.
    Mr. Saxton. I see.
    Dr. Thomas. Because I am convinced that those goose 
populations will stabilize at some point. I have no reason to 
suspect that geese are going to be totally different from any 
other animal species on this Earth.
    Mr. Saxton. Do you agree or disagree with the notion that 
the food supply has significantly changed within the lower 48 
and that they, therefore, tend to live a longer life, and, 
perhaps, a healthier life?
    Dr. Thomas. I agree that there is an enormous amount of 
grain. I would contend that, perhaps, what we are seeing is a 
placement of natural non-agricultural types of food that may 
have prevailed throughout the 1800's and before and, perhaps, 
into the early 1900's. So, what we could be seeing is an 
agricultural exchange for wilder types of food which 
disappeared when so much land was cleared by agriculture in the 
U.S. I agree that there is a subsidy; I would agree that, 
perhaps, geese are living, perhaps, a little bit longer, but to 
contrast my view with Dr. Batt's, I do not think that this is 
resulting in enhanced rates of reproduction in the Arctic. As I 
have indicated before, there is a significant long-term decline 
in the clutch size of birds laying in southern Hudson's Bay, 
and that, the authors of the report contend, is due to food 
shortages there.
    Mr. Saxton. Well, let me just back up a couple of thoughts 
there. If there are more birds--we know there are more birds, 
and you just indicated that they are living somewhat longer. If 
there are more big birds to make little birds, doesn't it 
automatically mean there will be more baby birds?
    Dr. Thomas. No, because you are making the assumption that 
there are more and bigger birds, and I don't believe that----
    Mr. Saxton. Well, you agreed with me.
    Dr. Thomas. No, I disagree that there are more big birds. I 
would agree that there are, perhaps, more----
    Mr. Saxton. Adult birds, excuse me for using the wrong 
word, adult birds.
    Dr. Thomas. Yes, there are----
    Mr. Saxton. There are more adult birds.
    Dr. Thomas. Yes, but whether there are more adults breeding 
in certain parts of the sub-Arctic where habitat is limiting is 
yet to be determined.
    Mr. Saxton. You mean, you don't think that the fact that 
there are more adult birds means that there are more adult 
birds breeding?
    Dr. Thomas. Not necessarily. I can indicate to you from 
some of my own data that there are significant numbers of non-
breeding adult birds returning in the spring to James Bay. We 
have not looked at this issue of whether every adult bird is 
going to be a breeding bird in the North, and this is one of 
the classical areas of population self-regulation, that not 
every female may breed in every year. If a female does breed, 
will she lay the same amount of eggs each year? This is where 
there is uncertainty; this is where we need to have some more 
information.
    Mr. Saxton. Well, unfortunately, we are running out of 
time. This is a very interesting subject, and I would like to 
and will pursue it in other forms, but we are going to have to 
call today's hearing to a close. I would like to thank each of 
you for being here. There may be some members who were here or 
even some who were not who have additional questions, and, if 
so, we will send them along to you and ask you if you would 
answer them in writing. And, so unless there if further 
business, which there is not because there are no members here, 
the hearing is adjourned. Thank you very much.
    Dr. Thomas. Thank you.
    [The prepared statement of Ambassador Chretien may be found 
at the end of the hearing.]
    [The information may be found at the end of the hearing.]
    [Whereupon, at 12:41 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    Statement of Dr. John G. Rogers, Deputy Director, U.S. Fish and 
              Wildlife Service, Department of the Interior

    Thank you for the opportunity to appear today to discuss 
management activities associated with ecological problems 
caused by overabundant light geese.
    North American geese are a natural resource of enormous 
economic and social value to both hunters and birdwatchers 
throughout the United States. Migratory bird hunting, including 
goose hunting, generates about $4 billion of economic activity 
annually. Local and regional economies are further enhanced by 
expenditures of millions of people viewing and photographing 
geese during migration and winter. Management of light goose 
populations in North America has presented the wildlife 
management community with one of its most challenging tasks. In 
contrast to the efforts to restore wildlife populations 
depleted by years of market hunting in the late 1800s and early 
1900s, we are now faced with managing some populations of geese 
that have become so overabundant that they are literally 
destroying their own habitat and a priceless ecosystem. Dealing 
with this problem has forced the Service to change its 
management approach to save goose populations from one of 
population restoration and maintenance to one of population 
control.
    Mid-continent light geese are lesser snow geese (Anser c. 
caerulescens) and Ross' geese (Anser rossii) that breed in the 
subarctic and arctic regions of Canada, primarily along the 
south and west coasts of Hudson Bay and the southern portions 
of Southampton and Baffin Islands. These light geese migrate 
southward in the fall through the Central and Mississippi 
Flyways. Historically, mid-continent light geese wintered 
primarily in the coastal areas of Texas and Louisiana; however, 
today their winter range spans across Texas, Louisiana, 
Oklahoma, Arkansas, and the central highlands of Mexico.
    The mid-continent light goose population has grown more 
than 300 percent over the last 30 years, from 900,000 birds in 
1969 to over 3 million birds today, as measured by mid-winter 
surveys. These population levels far exceed any historical 
records. The rapid growth of the population has been primarily 
attributed to the expansion of agriculture along the Central 
and Mississippi Flyways, low mortality, and increased winter 
survival.
    Another population of geese that is steadily increasing as 
a result of increased use of agricultural lands and lower 
mortality rates is the greater snow goose (Anser c. 
atlanticus). These geese breed in the eastern Arctic of Canada 
and Greenland and migrate southward through Quebec, New York, 
and New England to their wintering grounds in the mid-Atlantic 
U.S. The greater snow goose population has expanded from less 
than 50,000 birds in the late 1960s to approximately 700,000 
today. With a growth rate of about 9 percent per year, the 
population is expected to reach 1 million by 2002, and 2 
million by 2010.
    Abundant food resources in migration and wintering areas 
have fostered rapid population growth in these three species of 
light geese. However, for the mid-continent population, 
suitable breeding habitat in the arctic tundra is becoming a 
limiting factor. This is a direct result of the intense feeding 
activities of light geese, which leads to the loss of 
vegetation and an increase in soil salinity.
    Due to the short tundra growing season, such habitats may 
take decades to recover, if they recover at all. Currently, 35 
percent of the 135,000 acres of habitat in the Hudson Bay 
Lowlands is considered destroyed, 30 percent is damaged, and 35 
percent is heavily grazed. Other arctic habitats may be 
suffering the same fate as existing snow goose colonies expand 
and new colonies are established.
    The Service, along with the Canadian Wildlife Service and 
virtually every credible wildlife biologist in both countries, 
believes that the mid-continent light goose population has 
exceeded the carrying capacity of its breeding habitat and that 
the population must be reduced to avoid long-term damage to an 
ecosystem important to many other wildlife species in addition 
to snow geese. In 1997, the Arctic Goose Habitat Working Group 
of the Arctic Goose Joint Venture recommended that wildlife 
agencies take steps to reduce the mid-continent light goose 
population by 50 percent by 2005. There was overwhelming 
support for this action by the National Audubon Society, Ducks 
Unlimited, the American Bird Conservancy and other conservation 
organizations from both countries.
    Although the greater snow goose population has experienced 
similarly fast growth, studies in the high Arctic have not 
documented extensive damage to breeding habitats as of yet. 
However, large populations of greater snow geese are negatively 
impacting agricultural crops in the U.S. and Canada, natural 
marshes in the St. Lawrence estuary and some coastal marshes of 
the mid-Atlantic U.S. In a recent report, the Arctic Goose 
Habitat Working Group recommended that the population be 
stabilized by the year 2002 at between 800,000 to 1,000,000 
birds. Hopefully, this will prevent a repeat of the destruction 
of arctic habitats that has occurred as a result of the mid-
continent light goose population explosion and stabilize the 
agricultural damage experienced annually in Canada and the U.S.
    An Environmental Assessment of the mid-continent light 
goose situation was completed by the Service after extensive 
consultation with State/provincial, private, academic, and non-
governmental partners in the U.S. and Canada. Several 
alternative management actions for reducing the light goose 
population were examined in the Assessment. The preferred 
alternative was to authorize new methods of take, namely 
electronic calls and unplugged shotguns, for use by hunters 
during normal hunting frameworks, when all other waterfowl and 
crane seasons were closed. The preferred alternative also 
advocated (included) creation of a Conservation Order--a 
special new management action designed to decrease 
populations--that authorized taking of geese during the normal 
framework closing date of March 10 through August 31.
    In early February 1999, the Service issued a Finding of No 
Significant Impact along with the Environmental Assessment. The 
Service subsequently published two rules on February 16, 1999, 
that authorized use of electronic calls and unplugged shotguns 
with the restrictions cited above, and also established a 
Conservation Order for the reduction of overabundant mid-
continent light geese. These regulations were made available to 
the 24 States that comprise the Mississippi and Central 
Flyways. The Service has projected that an additional 618,000 
light geese would be harvested in the first year of 
implementation of the new regulations in the U.S. In its 
rulemaking, the Service announced that the new measures 
represented short-term options for addressing the light goose 
problem and that in 2000 it would initiate preparation of an 
EIS that considered a range of long-term solutions to the 
problem. The timeline for preparation of an EIS was established 
after consultation with the Council on Environmental Quality.
    Several states implemented regulations immediately upon 
publication of the rules. Based on reports from field 
biologists, the new regulatory tools appear to be very 
successful for increasing harvest of light geese. However, due 
to an unusually early spring migration this year, it is 
possible that the projected level of harvest may not be 
realized. Harvest information to measure the effectiveness of 
these regulations will not be available until later this 
summer. Recently, the Canadian Wildlife Service implemented 
similar regulatory changes intended to increase harvest of 
light geese in Canada.
    We have no previous experience to guide us in determining 
how effective increased harvest pressure will be in controlling 
light goose populations. To complement harvest management 
actions, we have initiated land management practices that will 
increase susceptibility of light geese to harvest and make some 
lands less suitable for these birds. Regional Action Plans were 
developed in cooperation with the States and will be 
implemented over the next 3 years to help reduce snow goose 
numbers. These plans will focus on five points: (1) providing 
increased hunter opportunity on public and private lands, where 
feasible; (2) decreasing food availability for snow geese; (3) 
manipulating wetland areas to deter snow geese; (4) altering 
winter habitat; and (5) conducting communication and outreach 
efforts.
    The Service's management action has received widespread 
support from the scientific and conservation community. 
Conservation groups such as the National Wildlife Federation, 
Wildlife Management Institute, the Ornithological Council, 
American Bird Conservancy, and Ducks Unlimited have expressed 
strong support for the light goose population reduction 
program. In addition, Flyway Councils and individual State 
wildlife agencies have worked closely with the Service to 
implement management actions.
    There have been challenges to the Service's proposed 
actions. On March 3, 1999, the Humane Society of the United 
States and several other animal rights groups filed a lawsuit 
against the Service, challenging the new light goose 
regulations. The plaintiffs maintained that the Service had 
violated the Migratory Bird Treaty by enacting the new 
regulations and that an Environmental Impact Statement should 
have been completed prior to implementation of the rules. On 
March 12, 1999, a preliminary injunction hearing was held in 
Federal District Court in Washington, DC.
    On March 18, 1999, Judge Thomas Hogan denied the injunction 
sought by the plaintiffs. In his written opinion, Judge Hogan 
indicated that the Service's actions likely constituted a 
reasonable use of its authority under the Migratory Bird 
Treaty, and that the population reduction program was based on 
sound scientific information. However, Judge Hogan stated 
further that the Service's Environmental Assessment represented 
a ``hard look'' at the proposed action that ``comports with the 
spirit of NEPA, though not its letter.'' The judge concluded 
that the plaintiffs had demonstrated a substantial likelihood 
of success on the merits of their NEPA claim if the case 
proceeded further, and that an Environmental Impact Statement 
should have been prepared prior to implementation of the new 
regulations.
    The Service believes that the Environmental Assessment of 
its light goose population reduction program, and accompanying 
Finding of No Significant Impact, sufficiently complied with 
the requirements of NEPA. However, based on the written opinion 
of the Court, the Service has decided not to continue with 
litigation and will initiate preparation of an EIS immediately. 
On April 2, 1999, the Service announced its intention to 
withdraw the two regulations on light goose population 
reduction after the northward migration later this spring. It 
is possible that the time requirements for preparing an EIS may 
preclude resumption of light goose management actions next 
spring. If population reduction measures are not implemented 
during spring 2000, the mid-continent population will 
experience additional growth that otherwise would not occur. 
Consequently, our ability to bring the population to more 
desirable levels will become more difficult. Any delay in 
further population reduction will allow goose numbers to 
increase. In order to make the most efficient use of our 
financial and personnel resources, the Service will incorporate 
management options for greater snow geese in the analysis, in 
addition to the mid-continent light goose analysis. The 
resulting EIS therefore will represent a comprehensive 
management strategy for white geese in the U.S. that includes 
lesser snow geese, Ross' geese, and greater snow geese.
    The range of management options to be analyzed in the EIS 
process will likely include the two management options 
authorized this spring, land management practices, as well as 
direct management options such as trapping and culling on 
wintering areas and cominercial harvest. The full range of 
options to be considered will be determined during the public 
scoping phase of the EIS process. Because the authority of the 
Service is limited to actions in the U.S., the Service cannot 
consider direct management actions on the arctic breeding 
grounds, such as collecting eggs, destroying nests, or culling 
on breeding colonies. However, if management actions in the 
U.S., combined with regulatory changes implemented by Canada, 
do not result in the desired population reduction within 3-5 
years, it is likely that the Service will request that Canada 
consider more direct measures on the breeding grounds.
    The Service firmly believes that aggressive management 
intervention is a necessary and scientifically sound approach 
for the control of white goose populations. Without 
intervention, we will likely witness the destruction of an 
ecosystem that is important to other migratory birds and other 
wildlife species. It is also possible that the snow goose 
population will crash and remain at extremely low levels due to 
lack of suitable breeding habitat, the spread of disease, and 
predation.
    The Service is committed to working with State fish and 
wildlife agencies, Canadian wildlife authorities, and public 
stakeholders to address the critical issue of the overabundance 
of white geese.
    Thank you for the opportunity to speak to you today and for 
your support for our efforts to deal with these important 
migratory bird management issues. I would be pleased to answer 
any questions you may have regarding this issue.
[GRAPHIC] [TIFF OMITTED] T6803.001

[GRAPHIC] [TIFF OMITTED] T6803.002

   Statement of Gary J. Taylor, Legislative Director, International 
                Association of Fish & Wildlife Agencies

    Thank you, Mr. Chairman. I am Gary Taylor, Legislative 
Director for the International Association of Fish and Wildlife 
Agencies. I appreciate the opportunity to share with you the 
perspectives of the Association on the increase of the mid-
Continent lesser snow goose (snow goose) population and the 
impact they are having on the Arctic tundra habitat. The 
Association supports the U.S. Fish and Wildlife Service's final 
rules on the management of Mid-Continent Light Geese (MCLG) 
[Federal Register, Vol. 64, No. 30, 7507-7529, 16 February 
1999], and urges the Subcommittee's support for these actions 
and for increased funding to the USFWS for monitoring the 
effectiveness of these conservation measures.
    The Association, founded in 1902, is a quasi-governmental 
organization of public agencies charged with the protection and 
management of North America's fish and wildlife resources. The 
Associations governmental members include the fish and wildlife 
agencies of the states, provinces, and Federal governments of 
the United States, Canada and Mexico. All 50 states are 
members. The Association has been a key organization in 
promoting sound resource management and strengthening Federal, 
state, and private cooperation in protecting and managing fish 
and wildlife and their habitats in the public interest.
    The Association and its member agencies are very familiar 
with the necessity for action to address the over population of 
snow geese that is causing substantial adverse impact on the 
Arctic tundra. As you may recall, we appeared before this 
Subcommittee on April 23, 1998 to address this issue and at 
that time we stressed the need for immediate action.
    The Association continues to be concerned that snow goose 
populations are expanding at an average rate of 5 percent a 
year. With this level of increase, nesting colonies continue to 
be impacted and damage to fragile Arctic tundra habitat is 
expanding annually. As you are aware, waterfowl biologists and 
wildlife managers have studied and clearly documented the 
impact of the expanding snow goose population. We are pleased 
that the Subcommittee is holding this hearing and urge you to 
support actions to help redress the effects of increasing snow 
goose numbers on Arctic habitat and the associated biological 
communities.
    Mid-continent lesser snow goose populations, which are an 
international resource, now exceed 5 million breeding birds. 
This is an increase since the mid-1970's of more than 300 
percent. This over abundance of snow geese is attributed mainly 
to changing agricultural practices on the wintering grounds in 
the coastal areas along the Gulf of Mexico, and throughout the 
Central and Mississippi Flyway migration corridors. These 
practices inadvertently increased the food available to snow 
geese during migration and wintering periods. Also the 
extensive network of state, provincial, Federal and private 
wildlife refuges provide sanctuaries for snow geese and other 
migratory waterfowl.
    Scientists and wildlife managers agree that mid-continent 
lesser snow geese, which nest in the central and eastern Arctic 
and sub-Arctic regions of Canada, have become so numerous that 
fragile tundra habitats along the Hudson and James Bay coastal 
lowlands have been severely degraded or destroyed. This is a 
serious ecological problem affecting all indigenous species of 
flora and fauna, thus decreasing the diversity of these 
biological communities. There are indications that other bird 
species, such as shorebirds and other waterfowl, which nest in 
the areas where severe damage has occurred, are already in 
decline because their breeding habitat is being destroyed. As 
snow goose populations continue to increase and brood rearing 
habitat declines, birds are dispersing to adjacent areas and 
the zone of damaged habitat is spreading. Population levels are 
now well above the sustainable levels for the Arctic and sub-
Arctic habitats upon which they depend. In addition, as 
carriers of avian cholera, snow geese are a potential health 
threat to all other bird species that share their nesting or 
wintering habitats. Furthermore, reports of damage to 
agricultural crops in the states and provinces that lie along 
the migration route between those areas are increasing.
    The status and implications of increasing mid-continent 
lesser snow goose populations have been addressed by an 
international group formed by the Arctic Goose Joint Venture 
(AGJV), which itself is an international joint venture under 
the North American Waterfowl Management Plan. The State fish 
and wildlife agencies are well represented on this and other 
joint Ventures, and have been engaged in the deliberations over 
solutions to this snow goose resource problem since the 
beginning. We also understand that the Canadian Wildlife 
Service and a number of non-governmental conservation 
organizations in Canada fully agree that snow goose numbers 
must be reduced to protect the Arctic habitat and the species 
diversity of that ecosystem.
    As you know, the Arctic Goose Habitat Working Group 
submitted its comprehensive report in 1997 entitled Arctic 
Ecosystems in Peril. The Report documented the ecological 
problems of the salt marsh habitats found in the Hudson Bay 
Lowlands, such as desertification, soil salinization and the 
depletion of vegetation communities. The IAFWA agrees with and 
supports the findings of that report, which encouraged U.S. and 
Canadian wildlife agencies to take immediate action. 
Subsequently, a group of stakeholders from Canada and the 
United States met to consider solutions to the over population 
problem. The Report of the Stakeholder's Committee on Arctic 
Neshing Geese (dated March 11, 1998) was accepted and endorsed 
by the IAFWA Waterfowl subcommittee and Migratory Wildlife 
Committee at their meetings in March, 1998. We understand that 
this Committee has a copy of that report.
    It must be recognized that the over-abundance of snow geese 
is a result of changes to the landscape wrought by man, largely 
as a result of changes in agricultural land use along the 
migration route. Furthermore, the snow goose population has now 
become a threat to itself and without immediate action, 
ecological damage in affected habitats could be catastrophic. 
There is credible and mounting evidence to substantiate that 
this damage could be permanent. Habitat recovery in areas that 
are not even permanently damaged will take decades or even 
centuries to recover. We have a responsibility and an 
obligation to protect this fragile habitat through appropriate 
measures to control the escalating snow goose population. To 
let nature take its course for snow geese is neither acceptable 
nor responsible. If the adult snow goose population is not 
reduced to appropriate and self-sustaining levels in the very 
near future, in addition to the habitat degradation, millions 
of snow geese will die from starvation and disease. Should the 
population ``crash'' in this manner, it is likely that snow 
geese would not recover because of long term or even permanent 
loss of the habitat necessary to support the rebuilding of 
populations. The Association concurs that effective management 
measures must be directed towards reducing adult survival. The 
mid-continent lesser snow goose population must be reduced by 
approximately 50 percent of its current size. To do this, we 
agree with the alternative regulatory strategies adopted by the 
FWS. There is virtually no risk of the alternative regulatory 
strategies causing over-harvest of mid-continent lesser snow 
geese within the next several years.
    The FWS has adopted the following alternative regulatory 
strategies designed to increase the harvest of snow geese, in 
concert with habitat management. The Association fully supports 
these strategies.
          1. Authorize States (through the State fish and wildlife 
        agency) to implement actions to harvest MCLG by shooting in a 
        hunting manner inside or outside the regulatory migratory bird 
        hunting season frameworks.
          2.Authorize (through the State fish and wildlife agency) the 
        use of electronic callers and unplugged shotguns during a light 
        goose only season when all other waterfowl and crane hunting 
        seasons, excluding falconry, are closed.
          Under the authority of this rule, States (through the State 
        fish and wildlife agency) will be able to develop and initiate 
        aggressive harvest management strategies. An increase in 
        harvest will assist with habitat management on the wintering 
        grounds and relieve pressure on the Arctic breeding grounds. 
        Furthermore, a decrease in snow goose numbers will ameliorate 
        pressures on the habitat of other migratory bird populations 
        that share the breeding and wintering grounds and other areas 
        along the migration routes with MCLG. It is anticipated that a 
        decrease in MCLG populations will also contribute to increased 
        reproductive success of adversely impacted populations of other 
        bird species and reduce the risk of transmitting avian cholera 
        to other species. These management actions are appropriately 
        designed so that an increased take of non-target species should 
        not result.
    If these actions are not taken, populations of MCLG will continue 
to increase and become more unstable as suitable breeding habitat 
diminishes. Losses to other avian species, from reduced breeding 
success and avian cholera, may result in reduced hunting, bird watching 
and other opportunities. Agricultural crop depredation will continue 
and worsen, resulting in significant economic consequences. Remedial 
actions must be applied now; any delay may result in consequences that 
are significant and, in some cases, irreversible.
    The U.S. Fish and Wildlife Service has prepared an Environmental 
Assessment reviewing the migratory bird regulations with the intent to 
significantly reduce snow goose numbers. The Association supports the 
findings of this environmental assessment.
    If these alternative regulatory strategies are not effective, then 
it is imperative that more drastic population control measures, for 
example, trapping and culling, be utilized in both Canada and the U.S.
    There is a decided lack of funding for goose management programs. 
The need for better biological data, enhanced habitat management, and 
intensified population management is increasing while Federal dollars 
for natural resources are decreasing. The Joint Flyway Councils have 
recommended a budget increase of approximately $5 million to adequately 
address goose population monitoring, management and research needs. The 
Association fully supports this request and also urges the support of 
this Subcommittee.
    In conclusion, Mr. Chairman, the Association firmly supports the 
regulations to increase the harvest of mid-continent fight geese and we 
would urge the Subcommittee to support increased funding to ensure that 
the problem of over-abundance of mid-continent lesser snow geese is 
appropriately addressed.
    Thank you for the opportunity to share the Association's 
perspectives, and I would be pleased to address any questions you might 
have.
                                 ______
                                 
 Statement of Dr. Vernon G. Thomas, Professor of Wildlife Ecology and 
   Management, Department of Zoology, University of Guelph, Guelph, 
                                Ontario
WHITE GEESE POPULATION ISSUE: AN ALTERNATE, ECOLOGICAL VIEW.

SUMMARY

    I do not believe that the growing population of white geese is 
causing ecological destruction in the Hudson-James Bay lowlands and 
that a major reduction of the population is warranted to conserve salt 
marshes. The impacts of feeding by these geese are noticeable, and they 
constitute the beginning of change in the plant species composition of 
the community. This change is not to be confused with habitat 
destruction or desertification, and certainly not imperilment of the 
ecosystem. The role of waste grains from U.S. agriculture in the 
bolstering of white geese populations has been exaggerated. Fears that 
a large population of white geese may transmit disease and endanger 
other species are not supported by the available evidence. Assertions 
that white geese will displace other nesting birds from the salt 
marshes of Hudson-James Bay are not based on a body of consistent 
scientific evidence.
    Lesser snow geese at southern Hudson Bay are already experiencing 
population reduction due to natural, intrinsic, population-regulation 
mechanisms. They have been working for at least a decade, and they 
could bring about a long-term stabilization without the need for extra 
hunting pressure. The natural mortality induced by these ecological 
processes is preferable to random hunting mortality in shaping goose 
populations and ensures their sustained adaptability over time. 
Populations of white geese have increased recently without much 
assistance from management and infusions of dollars. These populations 
will adjust naturally in the absence of management intervention and 
culling.
    The ``do nothing'' approach to management is preferable in this 
instance. Then management effort and finances can be re-directed to 
species whose status warrants intervention.

THE ALTERNATE, ECOLOGICAL VIEW.

    The reasons for my disagreeing with the U.S. Fish and Wildlife 
Service (USFWS) definition of the problem (i.e. habitat damage in the 
Canadian sub-arctic) and the solution (reduce population size of white 
geese) are based on my taking an ecological approach within the context 
of modern ecosystem management. The position of the USFWS and the 
Canadian Wildlife Service (CWS) lies in the outdated single-species 
management approach and the untested belief that a lower white goose 
population size will reverse the trend in salt marsh species 
composition change. A detailed, scientific, review of this issue with 
supporting references, appears as Attachment 1,-Thomas, V.G. 1999. 
Response to ``Migratory Bird Hunting: Regulations to Increase Harvest 
of Mid-Continent Light Geese.'' Proposed Rule. Federal Register, 
November 9, 1998. Volume 63, Number 216, pages 60271-60278.

The Agricultural Subsidy to White Geese.

    The USFWS argues that the large amount of waste grain left over in 
the U.S. each year has benefited geese during the Fall and Winter, has 
reduced the extent of over-winter mortality, and has allowed geese to 
return in the Spring with greater stores of fat resulting in higher 
rates of reproduction. The USFWS and the CWS contend that white geese 
are no longer limited by resource availability on the wintering 
grounds, and this is the reason for their population growth Ducks 
Unlimited states that since the waste grain is a by-product of human 
activity (agriculture), it behooves humans to deal with the increase in 
white geese that they believe is caused by the grain subsidy.
    There is no documented evidence to support the position that 
population sizes of white geese were ever regulated by food resources 
available on the wintering grounds, as opposed to the breeding grounds. 
This position has been adopted, uncritically, by the USFWS to reinforce 
their proposal to lower the population size by increasing hunter 
mortality. Similarly, there is no evidence that snow geese return to 
the breeding grounds and lay more eggs from their enriched grain-based 
diet. On the contrary, long-term data collected at the La Perouse Bay 
colony at southern Hudson Bay show a highly significant, long-term, 
reduction in clutch size (i.e. the number of eggs laid per female) of 
snow geese over 1973-1992. The authors of this result (1) suggest that 
this decline in clutch size may be related to declines in food 
availability just prior to nesting. This contradicts the view that 
geese fattened by U.S. grain go on to breed better. If the grain 
subsidy were to have this effect, there would be no long-term decline 
in clutch size. Thus, the importance of grain in the Fall-Winter diet 
of white geese has been exaggerated. While it may promote feeding and 
survival on the wintering ground, there appears to be no carry-over 
effect to the breeding grounds.

Geese Cause Habitat Change, Not Destruction.

    The position of the USFWS, the CWS, and Ducks Unlimited is that 
heavy grazing by geese causes habitat damage, desertification, and 
imperilment of the entire ecosystem. I concede that heavy grazing by 
geese has an obvious impact on the vegetative community. At low grazing 
pressures, it maintains the plant species that are nutritious to geese, 
but under heavy grazing pressure, those species are eliminated or 
reduced, only to be replaced in time by species that are not nutritious 
to geese. Thus feeding geese induce change and those changes appear as 
different associations of plant species in the lowlands of Hudson Bay. 
This certainly is not desertification or habitat destruction. These 
changes have probably occurred many times in the past. This species has 
existed for millions of years in a highly dynamic environment. They 
have not suddenly become delinquent in the past 20 years.
    The report Arctic Ecosystems in Peril (2) contends that the impacts 
of geese on vegetation may be irreversible. However, statements have 
been made in the above report and elsewhere to suggest that plant 
communities will regenerate, but the time for the original plant 
community to return is not known.
    The concept of change in the vegetative community as a consequence 
of feeding by geese has been addressed in detail by me in Attachment 1, 
and in my published evaluation of the report Arctic Ecosystems in Peril 
(3). I have shown, clearly, that vegetative change is not simply a 
function of geese gazing, alone. In the Hudson Bay lowlands, three 
factors are inter-acting to determine the vegetative features of goose 
habitats. Besides gazing, the influences of isostatic uplift and a 
pronounced, recent, phase of warming climate will influence the species 
composition of habitats. Isostatic uplift is the physical rising of the 
lowlands and coastal region at the very rapid rate of 1.0-1.2 in per 
Century. This impact of raising and drying the land has an enormous 
impact on plant species composition over just a few decades, quite 
apart from the gazing, action of the geese. The process of uplift also 
causes a tremendous amount of new shore line to appear each year (about 
15-20 m) from Hudson Bay, and this will soon become feeding habitat for 
geese. The Arctic Goose Habitat Working Group was so fixated on the 
idea of habitat loss by heavy gazing that they did not take into 
account rates of new habitat formation at the supra-tidal zone.
    In the videos on geese grazing and salt marsh vegetation produced 
for the public by Ducks Unlimited, scenes depict the appearance of 
vegetation in ``exclosures'' designed to exclude any animal grazing, 
and adjacent grazed areas. Such scenes portray a contrived, 
exaggerated, picture. The tall vegetation in the exclosures depicts 
what would prevail if geese or other grazers were never present. White 
geese are native species in their natural habitat, so some level of 
goose grazing must be accepted. The same Ducks Unlimited video also 
fails to show what occurs when exclosures are built around heavily-
grazed areas of salt marsh. There is rapid regrowth of vegetation in 1-
3 years. So much for ``irreversible damage''!!

Are Snow Geese at Record High Population Levels?

    I accept, readily, the population estimates for white geese 
produced during the past 30 years. They show a real increase in the 
size of lesser and greater snow goose, and Ross' goose populations. 
However, the fact that these populations have risen to record high 
levels in the past 30 years does not negate the suggestion that geese 
were equally as numerous in past times. I have dealt with this point at 
length in my report (3). It has been suggested that during the major 
climate warming that influenced North America about 1,000 years ago, 
the population size of lesser snow geese may have been as numerous as 
during the 1980s. We can surmise, again, that the population size may 
have contracted during the Little Ice Age that influenced the sub-
arctic during the 15-17th Centuries. The recent population increase is 
also coinciding with a renewed period of warming. Thus I believe that 
over time, the numbers of white geese expand and contract as climatic 
events affect their habitats. Given that three waves of glacial advance 
and retreat have already affected their present-day summer habitats, 
the current population trend is probably not new in ecological time, 
even though it is new to goose managers.

Geese and Their Capacity for Self-Regulation.

    The view of the USFWS, the CWS, and Ducks Unlimited is that geese 
numbers have to be reduced for their own good and the benefit of their 
summer habitat. Such a view gives little credence to the ability of 
geese to regulate their own numbers, or opines that such regulation may 
take too long. In the two reports of the Arctic Goose Habitat Working 
Group (one on lesser snow geese and a parallel report on greater snow 
geese) there is frequent reference to geese either having exceeded, or 
being close to, their habitats' carrying capacity. This is a blatant 
misuse of the ecological term Carrying Capacity. This term properly 
applies to a population of animals, not their habitat. It is false for 
managers to estimate the carrying capacity of the population based upon 
their impressions of the habitat. This is why the statement ``exceeding 
the habitat's carrying capacity'' is totally unscientific and 
illogical. Animal populations determine what the carrying capacity is, 
and based upon the trend in the growth of lesser snow geese numbers, 
the carrying capacity is still to be reached at the entire Hudson Bay 
population level. At a local level, there are many indications that the 
carrying capacity has been attained and that intrinsic, natural, 
mechanisms of population regulation are operating, and have done so for 
over a decade. The dispersal of geese to feeding areas not known to 
have been used by geese in the past is a natural process of dispersal 
that typifies all animal life. Lower gosling survival rates have been 
reported in the literature when broods remain in heavily-grazed areas 
that do not provide adequate food. In the event that such goslings grow 
up and enter the adult cohort, their body size is less than that of 
well-fed geese and, as such, have lower reproductive outputs. These are 
the self-regulating processes that are occurring already in some parts 
of the entire population. I believe that they will play an increasingly 
more important role, both locally and regionally, as the lesser snow 
goose population expands. These processes are not unique to geese. They 
typify every animal species in existence.

Do Lesser Snow Geese Pose Threats to Other Species?

    This question has been examined by me in Attachment 1, and the 
conclusion reached is negative, whether on the basis of contagious 
disease outbreaks, or the displacement of other salt marsh species from 
Hudson bay. More than 6 million lesser snow geese are believed to 
exist, and during the Spring and Fall migrations they form aggregated 
flocks that number in the thousands. Contagious diseases such as fowl 
cholera are endemic to this species. Were the risks of significant 
contagion to other avian species real, it would have already occurred, 
and the wildlife literature would have documented it. Concerns that 
areas of salt marsh that were heavily grazed by geese may contain 
smaller numbers of other salt marsh avian species derive from two 
reports. One report (4), published in 1994, reported that two species 
were believed to have declined in an area of heavy snow goose grazing. 
The second report (5), commissioned for Ducks Unlimited in 1997, and 
conducted in the same area, did not report the same two species as 
having gone through a decline. Thus there is some inconsistency between 
what species are affected in the two reports. Report (5) states that 
there appears to have been a decline in the numbers of some bird 
species over time. However these authors conclude that: ``We have found 
no compelling evidence that these impacted species are declining on a 
larger spatial scale.''
    The simple fact is that there is no sound, independently-confirmed, 
scientific evidence to suggest that widespread population lowering is 
being caused by heavy grazing by geese. Moreover, in such a case that 
there is a local lowering of other species densities, one has to 
distinguish between local extinction of those animals, and their 
displacement to other sites where they continue to exist and breed. 
This has not been investigated to date. The agencies that propose to 
impose an extra heavy hunting mortality on snow geese have taken this 
scant evidence of an impact on other species and used it as the basis 
of the proposed action. The USFWS states in its November 9, 1998 
proposed rule that:

        ``These declines and other ecological changes represent a 
        decline in biological diversity and indicate the beginning of a 
        collapse of the current Hudson Bay Lowlands salt marsh 
        ecosystem. Much of the degraded habitat is unlikely to 
        recover.''
    This is a good example of the hyperbole and sensationalism that has 
been used to justify the proposed plan of action.

Is the Do Nothing Approach to Management Appropriate?

    The USFWS and the CWS both believe that, having identified what 
they believe to be a real problem, they are compelled to introduce 
remedial action. Accordingly, both agencies have dismissed the ``do 
nothing'' option as inappropriate. I contend that populations of white 
geese have increased in size in recent years without the benefit of 
much management intervention and the spending of large sums of money. 
Insofar as they have also shown the ability to deploy natural 
population-limiting mechanisms (also known as density-dependent 
responses), I am convinced that they can regulate their numbers around 
their population's carrying capacity. If other species do this, I 
expect native, wild, snow geese in their natural habitat to do it. Thus 
the white geese issue is more of a problem for North American managers 
than it is for the geese and Nature. The USFWS has cited one reason for 
not letting natural regulating processes prevail. It is feared that 
once the snow goose population has reached its peak, it will quickly 
crash to very low levels, from which it will recover slowly. Again, 
there is no documented evidence for this fear. While population crashes 
have been reported for exotic species and populations under 
confinement, there is no reason to believe that it will attend snow 
geese, free to change their distributions in the sub-arctic and respond 
to local habitat conditions.
    The proposal to bring the Mid-Continental population of snow geese 
down to the North American Waterfowl Management Plan's goal of about 
1.5 million birds means that hunting mortality will have to be 
increased to 4-6 times the current level (i.e. about 1.3-2.0 million 
geese per year). The continental kill of lesser snow geese has declined 
in recent years, coincident with a decline in the numbers of goose 
hunters. If hunters were inclined to take a growing number of snow 
geese, they might have already done so, especially during the period 
when the rate of growth was rapid. I doubt that the North American 
hunters, even with the proposed relaxed regulations, will respond with 
a 4-6 times increase in goose harvest. If density-dependent population 
regulating mechanisms are allowed to act throughout the flyway, goose 
numbers will stabilize at some point. This will involve the reduced 
survivorship of young and adult geese, as well as reduced reproductive 
rates for the entire population. Any natural mortality will then be due 
to diverse environmental selective factors. These factors will, 
collectively, fashion the snow goose population in an adaptive, genetic 
manner, ensuring its adaptability to changing conditions over the long 
term. Hunting mortality does not act, deliberately, in this selective 
manner and cannot hope to mimic the selective role of natural 
processes.
    As we enter the 21st Century, it is assumed that our wildlife 
management will progress into ecosystem management and leave behind the 
older, outdated style of single-species, game animal management. Such a 
change will mean having to revise society's values towards all wild 
life, so that the ecological importance of a wider suite of species is 
realized, not only those that have utility to recreational hunters. 
Ecosystem management may also entail letting natural processes prevail 
in population regulation, as we have hitherto for the vast majority of 
wild animal species. The assumption of managers that they have to 
intervene and manage is based on the assumption that the management 
problem to be resolved is valid in ecological terms, and that the path 
of action is certain to lead to that objective. In the context of the 
present white goose issue, I cannot agree with the stated definition of 
the problem and so I cannot agree with the proposed terms of its 
resolution.
    The ``do nothing'' management option is appropriate in this 
instance. It will free up management personnel and budgets to be 
deployed for the better management of those species, such as pintail 
ducks and scaup ducks, that warrant a greater level of management. It 
is highly advisable to continue to monitor the different populations of 
white geese and their habitats, if only to learn more about how the 
different mechanisms of density-dependent processes operate in wild 
populations. Such understanding would benefit enormously all future 
management of North American wildlife species.

    (1) ``The Snow Geese of La Perouse Bay. Natural Selection in the 
Wild.' By F. Cooke, R.F. Rockwell and D. B. Lank. Oxford University 
Press, NY 1995. Figure 6.4.
    (2) ``Arctic Ecosystems in Peril.'' Report of the Arctic Goose 
Habitat Working Group. Edited by B.D.J. Batt. Special Publication of 
the Arctic Goose Joint Venture of the North American Waterfowl 
Management Plan. U.S. Fish and Wildlife Service, Washington, D.C. and 
the Canadian Wildlife Service, Ottawa, Ontario. 120 pages.
    (3) ``A Critical Evaluation of the Proposed Reduction in the Mid-
Continent Lesser Snow Geese Population to Conserve Sub-Arctic Salt 
Marshes of Hudson Bay.'' V.G.Thomas and B.K. MacKay. The Humane Society 
of the United States, Washington, D.C. 1998. 32 pages.
    (4) ``Monitoring shorebird populations in the Arctic.'' C.Trevor-
Gratto. 1994. Bird Trends 3: 10-12.
    (5) ``Are there declines in bird species using La Perouse Bay?'' 
R.F. Rockwell, D.Pollak, K.F. Abraham, P.M. Kotanen, and R.L. Jeffries. 
1997. The Hudson Bay Project Status Report for Ducks Unlimited. 
Unpublished report.
[GRAPHIC] [TIFF OMITTED] T6803.003

[GRAPHIC] [TIFF OMITTED] T6803.004

[GRAPHIC] [TIFF OMITTED] T6803.005

[GRAPHIC] [TIFF OMITTED] T6803.006

[GRAPHIC] [TIFF OMITTED] T6803.007

[GRAPHIC] [TIFF OMITTED] T6803.008

[GRAPHIC] [TIFF OMITTED] T6803.009

[GRAPHIC] [TIFF OMITTED] T6803.010

[GRAPHIC] [TIFF OMITTED] T6803.011

[GRAPHIC] [TIFF OMITTED] T6803.012

        Statement of Dr. Robert Alison, Orillia, Ontario, Canada

    Lesser snow geese and Ross' geese, collectively ``white'' 
geese, are a shared international resource. They nest primarily 
in the Canadian Arctic and winter mainly in the southern United 
States. Their numbers seem to have increased substantially in 
the past two decades, compared to mid-century levels, although 
it is not known if current populations surpass historic 
numbers. Anecdotal reports suggest there might have been more 
geese at the turn-of-the-century than now.
    All white geese next in traditional colonies, most with 
long histories of uninterrupted use, and these colonies occupy 
a minuscule fraction of the tundra as a whole. A few new 
colonies have sprouted recently, but the vast majority of 
breeding occurs at old established sites in the Far North.
    Much attention has been focused recently on the lesser snow 
goose, and in particular the mid-continent population, which 
breeds in the Eastern Arctic and the Hudson's Bay basin, and 
winters mainly within the Mississippi Flyway, chiefly in Texas 
and Louisiana. Surveys suggest that population has at least 
quadrupled since the early 1970's, and some biologists have 
proposed that that population growth has generated foraging 
pressure that is damaging the Arctic ecosystems vital to geese.
    Consequently, dramatic goose population reduction has been 
proposed to protect the tundra.
    However, the actual scenario is much more complex than a 
simple goose vs. habitat interpretation.
    The United States and Canada have focused largely on the 
mid-continent lesser snow goose, and so shall I. These birds 
nest mainly at about 15 separate colony sites.
    Beginning approximately 20 years ago, Arctic habitat 
changes began to occur in a broad area comprising some 200,000 
square miles. The region was mainly wetland, formerly green and 
lush, and currently brown and dry and seemingly practically 
lifeless. The main area of deterioration lies between the 
Ontario-Manitoba border and the McConnell River in the new 
territory of Nunivut, and largely parallels the Hudson's Bay 
coast. White geese have been blamed for causing this 
deterioration, a claim based mainly on ongoing research at the 
La Perouse Bay snow goose colony on Cape Churchill.
    A continental goose-culling initiative has recently taken 
shape in response to the contention that the habitat 
deterioration at the La Perouse Bay snow goose colony is a 
general situation, and that snow geese are threatening vital 
breeding habitat. I urge caution in jumping to such a 
conclusion, and for the following reasons, I recommend that the 
United States Government not be too hasty to cut goose numbers, 
at least not in the guise of protecting vital Arctic habitat.
    First, only a tiny fraction of the whole lesser snow goose 
mid-continent population actually nests within the area that 
has deteriorated, amounting to one single colony, at La Perouse 
Bay, which comprises less than 2 percent of the entire mid-
continent breeding population. Two-thirds of the population 
nests at Southampton and Baffin Islands, more than 400 miles 
away from the contentious area. Less than one-third nests near 
the northern edge of the deteriorating area, but most of these 
geese are abandoning and relocating elsewhere.
    There is convincing, but inconclusive, evidence that goose 
foraging at the tiny La Perouse Bay colony has generated local 
habitat deterioration, but similar habitat deterioration has 
not been confirmed for any other lesser snow goose colony--not 
one. To assume such deterioration is taking place elsewhere due 
to goose foraging is mere extrapolation and presumption, 
unwarranted by research. There might be a ``smoking gun'' at La 
Perouse Bay, involving a trivial proportion of the goose 
population as a whole. Elsewhere nobody knows for sure if geese 
are damaging breeding habitat.
    In addition, whereas goose numbers are rising and a 
substantial area of important habitat has deteriorated, no link 
between these two developments has been scientifically 
established. In fact, survey biologists say that the habitat 
deterioration began to occur before lesser snow geese began to 
increase in numbers, and that at least some of the 
deterioration has taken place in areas where white geese do not 
occur.
    Apart from the La Perouse Bay colony itself, the main area 
in which habitat deterioration has been shown is used by white 
geese only on migration, where they occur at ``staging'' sites. 
It is not breeding habitat for geese, and the extent to which 
these geese actually use that area has not been determined. 
Survey personnel say that whereas some of the area of 
deterioration is used by staging geese, much of it does not 
seem to be used by white geese at all. It is hard to conclude 
that the geese are damaging habitat in places where they do not 
go.
    Two major developments are simultaneously impacting on the 
Arctic, and it is possible that one or both are contributing to 
the observed habitat deterioration. Neither has been widely 
publicised, yet both merit concern as possible explanations for 
what is impacting upon northern habitats.
    First, isostatic uplift. Much of North America, centered on 
Hudson's Bay, was covered with glacial ice, up to two miles 
thick. The weight of the ice depressed the land mass, and its 
unloading by melting has caused the land to rise. The greatest 
uplift is taking place around Hudson's Bay, a rise of about one 
yard per century. A coastal area up to 200 miles inland has 
risen by about 1,000 feet since the glaciers melted, and to 
complete isostatic recovery, that area will rise an additional 
540 feet.
    The uplifting of the land mass has the effect of drying 
wetlands, and its impact on the area of habitat deterioration 
relevant to this discussion has not been studied, and has been 
largely ignored.
    Secondly, global warming is melting the permafrost 
foundation on which Arctic wetlands float. As the permafrost 
deteriorates, wetlands drain. Several studies have confirmed 
such losses, not only in the Canadian Arctic, but also in 
Alaska. Researchers at some institutions, including the 
Institute of Terrestrial Ecology in the United Kingdom, have 
predicted dire consequence for some Arctic habitats.
    The significance of warming on fragile Arctic vegetation is 
not yet clear, but research in the Cape Churchill area suggests 
that drying is transforming some former wetlands into expanses 
of barren baked clay. I would suggest it would be wise to 
examine the impact of warming on the area of deterioration to 
determine its contribution.
    Several possible factors, working alone or in combination, 
could have resulted in the observed habitat deterioration in 
the Hudson's Bay basin. To blame geese in particular is 
unwarranted at this point. We simply do not know for sure what 
has caused these habitat losses.
    Furthermore, ecological research indicates that white geese 
are facing unprecedented habitat challenges, especially due to 
global warming, and to focus dramatic population reduction 
strategies on these birds at this time carries some risk. It is 
premature to claim the geese are imperiling their habitats, and 
misleading to cut numbers in the guise of protecting habitats--
except perhaps in the context of a single relatively 
insignificant colony.
    I have hunted geese. I have even hunted snow geese. I have 
not a single objection to goose hunting, per se. The current 
abundance of geese seems to open more recreational 
opportunities to sportsmen, and added harvesting seems 
warranted so long as conditions prescribed by the Migratory 
Birds Convention, including a season framework of September 1 
to March 10, be met.
    If, however, there is a special problem at a certain 
colony, I'd suggest special remedial action at that site--but 
not to target the entire goose population with extraordinary 
reduction.
    Hunting might not, in fact, be the best way to solve local 
problems. Aircraft harassment or egging are alternatives. In 
the absence of alternatives to hunting, the whole process seems 
to have a distinctly pro-hunting agenda, rather than a broader 
pro-conservation motive.
    Naturally, I would prefer to let Nature take her course. 
There are signs that that process is underway at La Perouse 
Bay, where gosling survival is almost one-half what it was 25 
years ago. It is natural regulation weeding out geese to 
achieve equilibrium.
    Finally, the plan calls for the culling of one-half of the 
goose population, and that gives rise to concern. It is the 
genetic impact I worry about, especially if adult breeders are 
targeted. The old geese are the storehouses of genetic 
excellence, and the target of wiping out half the gene pool 
seems risky. One should wonder about the wisdom of removing 
from a population such a high proportion of those geese whose 
genetic information could be vital to geese heading into an 
especially challenging period of climate change.
    Caution. I urge caution.
                                ------                                


Statement of Tom Adams, Senior Policy Advisor, National Audubon Society

    Mr. Chairman, on behalf of the more than one million 
members and supporters of the National Audubon Society, and our 
520 chapters in communities in the United States, Canada, and 
South America, thank you for the opportunity to testify on the 
impact of Snow Geese on Arctic resources.
    The National Audubon Society is one of the nation's leading 
environmental organizations. Our members are concerned about 
birds, wildlife, and their habitats. Audubon's involvement with 
the issue of snow goose overpopulation has included: (1) 
representation on the Arctic Goose Habitat Working Group; (2) 
participation in the Hudson Bay Lowland Excursion, coordinated 
by the Arctic Goose Joint Venture Management Board; and (3) 
representation in the Stakeholder's Committee on Arctic Nesting 
Geese.
    The National Audubon Society endorses the recommendations 
of the Arctic Goose Habitat Working Group, an international 
team mandated to scientifically document this urgent ecological 
problem. It is essential that we develop immediate steps that 
directly reduce the mid-continent population of Lesser Snow 
Geese. Long-term solutions that may involve changes in land-use 
practices in the southern and central United States also need 
to be developed.
    The mid-continent population of Lesser Snow Geese (breeding 
west of Hudson Bay, and wintering on the southern Great Plains 
and western Gulf Coast) has grown by about 300 percent since 
the 1960s, and is now estimated at well over three million 
birds. The population is continuing to grow at an annual rate 
of 5 percent. This unprecedented number of mid-continent Lesser 
Snow Geese has had an extensive, destructive, and potentially 
irreversible effect on arctic and sub-arctic staging and 
breeding habitats.
    The Snow Goose population nesting west of Hudson Bay, 
Canada, has reached incredible densities (sometimes with as 
many as 3,000 nests packed into one square kilometer of 
tundra). Plant species are being destroyed at unprecedented 
levels as a result of grubbing (by the root) and grazing by the 
burgeoning Snow Goose population in the Arctic. These plants 
are being replaced over vast areas by unpalatable, salt-
tolerant species. To quote Robert F. Rockwell, Kenneth F. 
Abraham, and Robert L. Jeffries (Winter 1997 issue of the 
Living Bird Quarterly) ``Scientists are concerned that the 
increasing numbers of geese may soon lead to an ecological 
catastrophe as these voracious feeders turn the delicate arctic 
habitat they inhabit into a barren wasteland.''
    Ironically, the problem of too many Snow Geese is one of 
our own making. The rapid increase in mid-continent Snow Goose 
populations is primarily a result of human modifications of 
habitat on the wintering grounds, along the migratory routes, 
and in the staging areas. Agricultural land-use and wildlife 
management practices have provided a nutritional ``subsidy,'' 
and have led to high winter survival and recruitment rates. 
Efforts to protect and enhance populations of waterfowl have 
worked too well for Snow Geese. Each year, an expanded 
population of Snow Geese has arrived in their arctic habitat in 
a stronger condition, with increased breeding success.
    These burgeoning numbers of mid-continent Lesser Snow Geese 
have caused widespread and potentially irreversible devastation 
to two-thirds of the habitat that otherwise would be mostly 
pristine tundra west of Hudson Bay in Canada. Long term studies 
show that populations of many bird species that depend on 
tundra habitat are declining precipitously as a result of the 
growing Snow Goose population. These include species from the 
Partners in Flight ``WatchList'' of birds at risk such as 
Hudsonian Godwit and Smith's Longspur, other rare species such 
as Yellow Rail, American Golden Plover, and Stilt Sandpiper.
    If we do not act, nature will not ``take its course'' in 
the short time needed to halt devastation of the tundra. This 
is due to the increased ability of Snow Geese to sustain 
themselves on the wintering grounds in ever-greater numbers. It 
is also due to the species' demonstrated ability and 
willingness to extend their Arctic/Subarctic nesting and 
foraging ranges continually as existing breeding grounds (i.e., 
smaller size, poor feather development, and increased disease 
morality), adult survival continues to increase. A potential 
scenario is that before millions of these geese suffer a 
population crash, they will have spread across much of their 
Arctic, devastating huge areas of tundra, and taken several 
other valuable bird and animal species with them.
    We are here to publicly state the unanimous resolution of 
National Audubon's Board of Directors to protect wildlife 
habitat and ecosystems in the Arctic and Subarctic currently 
under threat from damage by burgeoning populations of Lesser 
Snow Goose. The Board voted in September 1997 to support the 
science-based recommendations of the Arctic Goose task force to 
reduce the mid-continent population of the Lesser Snow Goose 
through expanded hunting and other means. Audubon's concern in 
this situation is in line with the Society's mission to protect 
birds, wildlife, and their habitat, using the best tools 
available.
    The Board resolution commits the National Audubon Society 
to work closely with Federal, state and Canadian agencies, and 
other non-governmental organizations to define the most 
effective mix of short-term and long-term solutions to the Snow 
Goose population problem. By acting now, we hope to reduce the 
loss of critical habitat and to protect the many bird species 
and other wildlife that depend on this habitat.
    Mr. Chairman, once again I want to thank you for providing 
me with this opportunity to testify before the Subcommittee 
today. I would be happy to answer any questions you might have.
                                ------                                


 Statement of Dr. Bruce D. J. Batt, Chief Biologist, Ducks Unlimited, 
Inc., and Chair, Arctic Goose Habitat Working Group, Arctic Goose Joint 
                                Venture

    Thank you, Mr. Chairman, for the opportunity to share with 
you the perspectives of Ducks Unlimited, Inc. on the impacts of 
light goose populations on the Canadian arctic tundra and on 
the effectiveness of management programs designed to reduce the 
numbers of these birds. I am Bruce Batt, Chief Biologist of 
Ducks Unlimited, Inc. in Memphis, TN and I am also Chairman of 
the Arctic Goose Habitat Working Group, which was established 
by the Arctic Goose Joint Venture under the North American 
Waterfowl Management Plan.
    This Working Group has been responsible for developing two 
scientific reports which have formed the basis for decisions bv 
the U.S. and Canadian governments that the damage being caused 
by the geese to the Canadian arctic tundra warranted 
intervention by management agencies to reduce the numbers of 
geese to levels that can be sustained for the long term. This 
Working Group consisted of 17 public agency, university and 
non-government organization scientists and natural resource 
managers. This was the strongest group of professionals ever 
drawn together to analyze a goose conservation issue of such 
scope and consequence. Our work was objective and very critical 
in coming to our solid consensus conclusions. Subsequent 
technical review by other peer scientists has not resulted in 
any substantive disagreement with our conclusions about the 
cause of the problem or the desirability of reducing the 
numbers of geese to a more sustainable level. Credible 
criticism has only emerged on the question of how much 
increased harvest is necessary to reduce numbers to desirable 
levels.
    Your invitation to be here today asked me to address three 
questions. The first was to review the impact that the 
overabundant geese are having on the Canadian Arctic tundra.
    In recent years more geese than ever have been returning to 
Canada's arctic and sub-arctic breeding areas. This increase 
has been driven by several factors; the most important of which 
has been the widespread conversion to agriculture of all the 
areas in which they live outside the summer breeding period. 
The birds now have an unlimited food supply for most of the 
year, a fact that has led to increased winter survival of 
adults and young-of-the year and the birds now return to the 
breeding grounds in excellent condition every year. Their 
condition on arrival is directly related to their breeding 
success because most of the nutrients used for egg laying and 
incubation are brought with them from their last stops on the 
prairies of the U.S. and Canada. Thus, year in and year out the 
birds are able to lay eggs no matter how poor are the food 
supplies on the breeding colonies.
    After arrival, the geese also feed heavily on the breeding 
areas right up to actual nesting. Their spring feeding behavior 
is very destructive, as they have to dig out the roots of their 
food plants because, like your brown lawn in the spring, all 
the nutritional value is below ground. The geese have fed like 
this for thousands of generations. The difference today is that 
so many return each year that the habitats upon which they feed 
are so overwhelmingly destroyed by the large numbers of birds 
that they cannot recover during the short summer growing 
season. Thus, each year as ever-increasing numbers of birds 
return, the area of destroyed habitat grows dramatically. On 
the best studied area, an 1,100-mile strip of salt marsh 
habitat along the Hudson and James Bays, 35 percent had been 
destroyed by 1995 and another 35 percent was severely damaged. 
This is clearly not a localized problem as a very few 
individuals have claimed. The word, destroyed, is correctly 
used because the process of devegetation of the salt marsh 
results in changes in soil chemistry that will prevent the 
goose food plants from becoming re-established. In some places, 
salinity levels have reached three times sea strength.
    Other observers on the largest breeding colonies further 
north have seen similar impacts of salt marsh and upland 
habitats. However, the degree of damage has not been so fully 
quantified. That work is underway right now through the use of 
satellite photographs on which the damaged areas are easily 
seen from space. Because of the availability of archived 
images, the scientists will be able to look at scenes from the 
past two decades to measure the rate of destruction of the 
ecosystem. However, there is no doubt among the scientists on 
the ground that the damage has been enormous. The finite amount 
of suitable goose breeding habitat is rapidly being consumed 
and will eventually be lost.
    The destruction of these areas is manifested in 
increasingly low survival of goslings because there are no food 
plants that they can eat when they hatch. It is easy to go to 
colonies along the Hudson Bay Lowlands and find hundreds of 
dead and dying goslings. I've done it myself at Cape Henrietta 
Maria and LaPerouse Bay. There are already tens of thousands of 
goslings dying each year and there will soon be millions. 
Normally, density dependent population regulation would have 
occurred before this condition emerged and the adults would 
have reduced their egg production because of lack of food. The 
unusual twist on this story is that the geese are freed from 
local conditions because they return fat and ready to breed 
because of agriculture in Canada and the U.S.
    If we do not intervene, the likely course of continued 
population growth is increased gosling mortality until so few 
survive that the population eventually declines because the 
natural mortality of adults is not being replaced. This could 
be thought of as a population ``crash'' although it will be 
protracted over several years. The population will decline to 
some very low level and remain there for a very long time 
because the habitat needed to fuel a population recovery will 
have been destroyed and will remain that way for many decades--
much of the next century.
    Extensive collateral damage will also occur because the 
collapsed ecosystem will no longer be able to support all the 
other wildlife species that depend on these systems for their 
sustenance. As unhappy as the forecast is for the geese, this 
collapse of an ecosystem may actually be an even more serious 
consequence ``in the big picture.''
    We concluded that managers should intervene to prevent the 
continued growth of this problem because it is caused by 
changes that, although unwittingly, we have wrought on the 
North American continent. To fail to do so would be an 
abrogation of our most fundamental responsibility to conserve 
the biodiversity of life in all the ecosystems that we 
influence. I believe Mr. Rogers has already explained how the 
U.S. and Canadian governments have responded so far.
    The second question was how successful we thought the U.S. 
Fish & Wildlife Service's actions to reduce the size of the 
white goose populations in the mid-continent would be. It is 
only possible to speculate on the answer as the first 
conservation order is still in effect and we do not yet know 
how many birds are being removed from the population. There are 
plenty of restraints on this first effort as it was not 
authorized until quite late in the winter which was short 
notice for hunters and outfitters to gear up for a new time 
frame with new tools for the harvest. The cultural shift of 
hunters participating in a harvest at this time of year will 
also take some time to develop and not all jurisdictions are 
yet able to fully participate. Nevertheless, informal feedback 
indicates that the harvest is well underway and many geese are 
being shot. I believe we will learn, after the final kill 
estimates are in hand, that enough birds were harvested to 
verify that future seasons, with more of the restraints 
removed, should indeed be able to get the job done.
    The third question was about additional steps that might be 
taken if the current activities are not successful. This would 
substantially involve direct culling of the population by 
management agencies. This is an extremely distasteful prospect 
for everybody. It has profound political and economic 
consequences. It is hard to conceive of an army of paid 
government employees trapping and euthanizing geese, whether it 
occurred in Texas, South Dakota, Manitoba or the Northwest 
Territories. Planning for this eventuality has not proceeded 
very far because a reasonable test of how much can be 
accomplished using the current methods will take a few years.
    Everybody with a sincere concern about the future welfare 
of this wonderful resource and the ecosystems in which it lives 
hopes deeply that increased harvest will work because we have 
even less experience with whatever the next steps might be. 
Further, it is not at all clear that the necessary political 
and economic support can come together to actually allow such 
practices. It is far more prudent to maintain the current 
course and it is crucial to do so without delay. Every 
technical, administrative, legal and political delay just adds 
to the problem. There is real urgency here as we may not be far 
from the point where the only choice is to record the aftermath 
of the crash of goose numbers with the related ecosystem 
destruction with all the other species that live there with the 
geese.
[GRAPHIC] [TIFF OMITTED] T6803.013

[GRAPHIC] [TIFF OMITTED] T6803.014

[GRAPHIC] [TIFF OMITTED] T6803.015

[GRAPHIC] [TIFF OMITTED] T6803.016

[GRAPHIC] [TIFF OMITTED] T6803.017

[GRAPHIC] [TIFF OMITTED] T6803.018

[GRAPHIC] [TIFF OMITTED] T6803.019

[GRAPHIC] [TIFF OMITTED] T6803.020

[GRAPHIC] [TIFF OMITTED] T6803.021

[GRAPHIC] [TIFF OMITTED] T6803.022

[GRAPHIC] [TIFF OMITTED] T6803.023

[GRAPHIC] [TIFF OMITTED] T6803.024

[GRAPHIC] [TIFF OMITTED] T6803.025

[GRAPHIC] [TIFF OMITTED] T6803.026

[GRAPHIC] [TIFF OMITTED] T6803.027

[GRAPHIC] [TIFF OMITTED] T6803.028

[GRAPHIC] [TIFF OMITTED] T6803.029

[GRAPHIC] [TIFF OMITTED] T6803.030

[GRAPHIC] [TIFF OMITTED] T6803.031

[GRAPHIC] [TIFF OMITTED] T6803.032

[GRAPHIC] [TIFF OMITTED] T6803.033

[GRAPHIC] [TIFF OMITTED] T6803.034

[GRAPHIC] [TIFF OMITTED] T6803.035

[GRAPHIC] [TIFF OMITTED] T6803.036

[GRAPHIC] [TIFF OMITTED] T6803.037

</pre></body></html>
